<html>
<title> - HYBRID HEARING WITH SECRETARY OF HEALTH AND HUMAN SERVICES ALEX M. AZAR II</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     HYBRID HEARING WITH SECRETARY
                      OF HEALTH AND HUMAN SERVICES
                            ALEX M.AZAR II

=======================================================================

                                HEARING

                               BEFORE THE

             SELECT SUBCOMMITTEE ON THE CORONAVIRUS CRISIS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 2, 2020

                               __________

                           Serial No. 116-124

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-988 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

           David Hickton, Select Subcommittee Staff Director
                     Russell Anello, Chief Counsel
                         Senam Okpattah, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director

                                 ------                                

             Select Subcommittee On The Coronavirus Crisis

               James E. Clyburn, South Carolina, Chairman
Maxine Waters, California            Steve Scalise, Louisiana, Ranking 
Carolyn B. Maloney, New York             Minority Member
Nydia M. Velazquez, New York         Jim Jordan, Ohio
Bill Foster, Illinois                Blaine Luetkemeyer, Missouri
Jamie Raskin, Maryland               Jackie Walorski, Indiana
Andy Kim, New Jersey                 Mark E. Green, Tennessee
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on October 2, 2020..................................     1

                               Witnesses

The Honorable Alex M. Azar II, Secretary, Department of Health 
  and Human Services
Oral Statement...................................................     8

Written opening statements and the written statement of the 
  witness are available on the U.S. House of Representatives 
  Document Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are listed below/available at: 
  docs.house.gov.

  * Pfizer.com, ``An Open Letter from Pfizer Chairman and CEO 
  Albert Bourla to U.S. Colleagues'' article; submitted by Rep. 
  Foster.

  * Sciencemag.org, ``Trump Once Again Requests Deep Cuts in U.S. 
  Science Spending'', article; submitted by Rep. Foster.

  * The-Scientist.com, ``Trump Proposes Significant Cuts to NIH 
  2021 Budge'', article; submitted by Rep. Foster.

  * Sciencemag.org, ``What's in Trump's 2018 Budge Request for 
  Science?'', article; submitted by Rep. Foster.

  * Journal of American Medical Association, ``Mortality, 
  Admissions and Patient Census at Skilled Nursing Facilities in 
  Three United States Cities During the COVID-19 Pandemic'', open 
  letter; submitted by Chairman Clyburn.

  * Letter from NACCHO; submitted by Chairman Clyburn.

  * Letter from IDSA, and HIV Medicine Association; submitted by 
  Chairman Clyburn.

  * Letter from HIV Medicine Association; submitted by Chairman 
  Clyburn.

 
                     HYBRID HEARING WITH SECRETARY
                      OF HEALTH AND HUMAN SERVICES
                            ALEX M. AZAR II

                              ----------                              


                        Friday, October 2, 2020

                   House of Representatives
      Select Subcommittee on the Coronavirus Crisis
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 9:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. James E. Clyburn 
(chairman of the subcommittee) presiding.
    Present: Representatives Clyburn, Waters, Maloney, 
Velazquez, Foster, Raskin, Kim, Scalise, Jordan, Luetkemeyer, 
Walorski, and Green.
    Chairman Clyburn. Good morning. The committee will come to 
order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I now recognize myself for an opening statement.
    Today, the Select Subcommittee welcomes Secretary of Health 
and Human Services, Alex Azar, the Trump administration's top 
health official.
    Secretary Azar, this is the first time you have testified 
before Congress since February. In the seven months since your 
last appearance, more than 207,000 Americans have lost their 
lives to the coronavirus and over 7 million have been infected. 
And all of us woke up this morning to the news that the First 
Family and at least one of their close staff members have been 
diagnosed with COVID-19. And we wish all of them a speedy and 
complete recovery.
    As Americans, we pride ourselves on being the most 
scientifically advanced Nation in the world, with the best 
doctors and public health experts. We have led the world in 
countless medical breakthroughs, from inventing the polio 
vaccine, to mapping the human genome, to battling AIDS and 
Ebola. That is why it has been so heartbreaking to watch the 
administration squander this legacy by refusing to lead, 
ignoring our scientists, and putting politics over the health 
of the American people.
    Let there be no doubt, the President's response to the 
coronavirus crisis has been a failure of historic proportions. 
COVID-19 has claimed more American lives than the battles of 
World War I, the Korean war, Vietnam War, Afghanistan war, and 
Iraq war, combined.
    While the President claims that he saved millions of lives, 
more people have died from the virus in the United States than 
in any other country on Earth. We have four percent of the 
world's population but 20 percent of the coronavirus deaths. 
More than 140 other countries have all had fewer deaths per 
capita from this virus than we have had in the United States.
    Behind me are the images of a few of the Americans we have 
lost. At my far right, is Skylar Herbert, the daughter of two 
first responders in Michigan. Skylar was a healthy five-year-
old who loved playing dress-up and dreamed of becoming a 
pediatric dentist when she grew up. She died from the 
coronavirus in April.
    Next is Cheryl Fink Lolley. At 81 years old, Cheryl was 
sharp as a tack, loved visiting with family and friends. She 
died in April after contracting the coronavirus. Cheryl's 
daughter, Alison Lolley, told her mother's story to our 
committee in June.
    To my immediate left is Jason Hargrove. Many people like I 
saw Jason as he drove his bus. He was a 50-year-old bus driver 
in Detroit. He caught the coronavirus after being coughed on by 
a passenger, and many of us watched as he yelled out in 
disgust. He died in early April. Jason's best friend and 
colleague, Eric Colts, spoke to our committee in May about 
Jason and the dangers faced by frontline workers around the 
country.
    The final photo is Demi Bannister. Demi was a 28-year-old 
third grade teacher in my home state of South Carolina, in my 
hometown of Columbia. She tested positive after returning to 
school for training early in September and died three days 
later. Last Sunday, Demi's mother, Shirley Bannister, also died 
from the coronavirus. Shirley tested positive for the 
coronavirus the day her daughter died. Shirley was a 57-year-
old constituent of mine and served as the chair of the nursing 
department at Midlands Technical College.
    Tragically, it is not hard to see why Americans like 
Skylar, Cheryl, Jason, Demi, and Shirley were more likely to 
die than people in most other countries. Even though the 
President knew early in February that the coronavirus was, 
according to him, here, deadly stuff, in March, he said--and 
I'm quoting him again--``I wanted to always play it down.''
    Consider with this desire--or consistent with this desire, 
the President has refused to step up and lead a national 
response to stop the spread of this deadly virus. Rather than 
implement a national testing strategy, the White House deferred 
to the states, reportedly because they believed blaming 
Democratic Governors for coronavirus deaths would be, in the 
words of a public health expert involved in the discussions, 
``an effective political strategy,'' end of quote. The result 
was widespread testing shortages and delays that let the virus 
spread widely throughout the country.
    The White House also refused to purchase and distribute 
masks and other protective equipment because Trump saying--and 
I'm quoting him again--we are not a shipping clerk, end of 
quote.
    As a result, the national stockpile overseen by you, Mr. 
Secretary, quickly ran out. States were forced to compete for 
scarce supplies while first responders and medical workers 
reused old masks and wore garbage bags to try to stay safe.
    As HHS Secretary and the first chairman of the White House 
Coronavirus Task Force, Mr. Secretary, you should have been at 
the helm of an ambitious national response, rather than follow 
the science, they tried to hide, alter, or ignore the signs 
whenever it contradicted the President's wish to downplay the 
crisis for perceived political advantage.
    This morning, my staff released the report that I hold. 
This report identifies 47 separate times that political 
appointees interfered with career scientists who were trying to 
help Americans stay safe during this pandemic. Forty-seven 
documented times.
    When the President complained the CDC guidance on reopening 
schools was, quote--and I'm quoting him--very tough and 
expensive, very tough and expensive, how expensive was Demetria 
Bannister's life when she went back into that classroom?
    After the President complained the testing was revealing 
too many new coronavirus cases and said--I'm quoting him 
again--slow down the testing, HHS altered key testing guidance 
to claim that people without symptoms did not need a test, even 
if they were exposed to the virus. That decision was reversed 
only after this select subcommittee and many others objected.
    And when the President complained that the--and I'm quoting 
him--``deep state'' at the FDA was not moving fast enough to 
approve treatments before the November election, the FDA 
authorized plasma therapy over the objection of top scientists.
    Mr. Secretary, you stood by the President at the press 
conference and repeated false statistics about the therapy's 
effectiveness. Now the administration appears intent on 
politicizing a vaccine, with the President pressuring the FDA 
to approve a vaccine before election day and casting doubt on 
the agency's efforts to ensure that a vaccine will only be 
approved based on science.
    Now, I know there are about four companies that are--that 
have moved to a third phase of testing, but I would hope that 
whatever they come up with--and I'm sure there'll be more than 
one vaccine--I'm hopeful that it will be a safe and effective 
vaccine. But even in the best case scenario, as Dr. Fauci said 
last week, most Americans will not receive a vaccine until mid 
to late 2021. That means Americans could be waiting up to 
another year to get vaccinated.
    I often share with the public that I was around during the 
polio vaccine, and I remember political decisions that were 
made for that vaccine. I'm sure many remember the Salk vaccine 
and then the Sabin vaccine. The Salk vaccine required a shot in 
the arm. The Sabin vaccine was a little drop of serum on a lump 
of sugar. Political decisions were made as to who would get the 
shot and who would get the serum. And I think all of us can 
imagine back in the forties and fifties who got the shots and 
who got the serum. I would hope that we won't have a repeat of 
this kind of political assistance being made by whatever 
vaccine is developed.
    In the meantime, coronavirus infections are rising again in 
more than 25 states, and hundreds of Americans are still dying 
every day. Tens of thousands more will die unless this 
administration provides a national plan for testing, tracing, 
mask wearing, and other public health measures to contain the 
virus.
    I urge the Administration to put partisan politics and 
ideology aside, embrace our Nation's long history of science, 
and finally show the leadership we need to get this pandemic 
under control.
    We can't bring back Skylar, Cheryl, Jason, or Demi, or 
Shirley. But whether other Americans just like them live or die 
depends on whether the Administration improves its response to 
this pandemic.
    I now yield to the ranking member for his opening 
statement.
    Mr. Scalise. I want to thank the chairman for yielding.
    I want to thank Secretary Azar for coming before our 
committee, and look forward to hearing your testimony to 
actually get to the facts of what is happening, the great work 
that your team has done.
    But first, I want to express my prayers and support to 
President Trump and First Lady Melania Trump. We know they 
tested positive. I know how tough and strong of a person 
President Trump is and how tireless he is, and I know he's 
going to continue working for the American people. But Jennifer 
and I surely keep he and the First Lady in our prayers for a 
quick and speedy recovery as I join with the chairman in 
expressing those thoughts.
    Secretary Azar, I truly want to thank you, as well as the 
80,000 men and women who work for your agency, who have been 
working tirelessly so well for the American people, completely 
focused on learning more about this virus, which we learn more 
about every day, as well as working so feverishly now toward 
finding one or more vaccines and therapies, which, by the way, 
your agency has already identified and approved a number of 
therapies that are working well to save lives, truly saving 
American lives as we speak. It's not gone without notice, the 
tireless work that your men and women at HHS and all the 
healthcare workers across this country are doing to save 
Americans lives. They are the frontline heroes of this virus.
    Today, the Republicans on the subcommittee are releasing a 
report. It's ``President Trump's Plan: A Whole of America 
Response.'' Yes, there is a plan. For those who choose not to 
read the plan, they might walk around saying there's not a 
plan. There are tens of thousands of pages of plans that 
continue to be updated by your agency and so many other Federal 
agencies that are all directly involved in helping us get 
through this.
    The plans cover so many things, from how to properly 
protect yourself and your family, how to safely reopen schools. 
We've actually had hearings on a number of items of those 
plans. We've talked about them. We've given the links to 
websites to people who deny that there's a plan, who hold their 
head in the sand and say there's no plan. And, again, just 
because you don't want to read a plan doesn't mean there isn't 
a plan. So, in this report we detail so many aspects of the 
plan.
    I want to go through some of the Trump Administration's 
national plan, some of the things that he's done, which include 
thousands of pages of guidance backing all of these up.
    First, it's a plan to procure personal protective 
equipment. We know this has come up many times. On March 29 of 
2020, President Trump launched Project Airbridge and began to 
carefully and thoughtfully leverage the Defense Production 
Act--that's right, the President multiple times has invoked the 
Defense Production Act--to secure PPE, to secure ventilators 
and other needed resources to combat this pandemic.
    As of September 20, 2020, the Trump administration 
coordinated the delivery or production of 243 million N95 
masks, 1.1 billion surgical and procedural masks, 45.5 million 
eye and face shields, 429 million gowns and coveralls, and over 
27.5 mil---billion, billion gloves.
    Further, as of September 20--or September 10 of 2020, the 
Strategic National Stockpile is fully stocked with 135,784 
ventilators. There was not one hospital in America that ran 
short of ventilators. There was not one American through this 
whole pandemic that was denied a ventilator who needed one. In 
fact, today, most doctors will tell you, if someone comes in, 
the last thing they want to do is put them on a ventilator 
because the science has advanced. Doctors know a lot more about 
this virus today than they did just a few months ago. And I 
credit our medical community for learning and sharing that 
information with others as we learn more every day to save 
American lives. That has been part of President Trump's plan.
    In addition, a plan to slow the spread. On March 16, 2020, 
President Trump announced national guidelines entitled, quote, 
``15 Days to Slow the Spread.'' In fact, Dr. Fauci testified 
right there where you're sitting, Secretary Azar, just a few 
weeks ago before this committee. When I asked him, was that 
part of the President's plan, he said, yes. I said, did that 
plan save American lives? He said yes. President Trump made 
those decisions. That was part of the President's plan.
    These guidelines outline how to help slow the virus' spread 
and keep our most high-risk populations safe. Again, as we 
learn more about this virus, we learn it doesn't affect 
everyone equally. So, as there are populations that we identify 
as higher at risk, there are more resources given.
    Part of the President's plan, by the way, as Secretary Azar 
is well aware, was to acquire and distribute testing machines 
to every nursing home in America. Admiral Girard sat right 
there at that table just a few weeks ago in this committee to 
talk about that aspect of President Trump's plan and how it's 
being carried out today to protect our Nation's seniors, which 
we uncovered over 40 percent of all deaths in America came from 
less than one percent of America's population, and that is 
seniors in nursing homes.
    It was through the work of some of us on this committee 
that we identified that, yes, 45 Governors actually followed 
the President's plan, the CMS guidelines, which were issued for 
how nursing homes could properly take care of seniors in 
nursing homes. That was part of the President's plan. 
Unfortunately, five Governors might have read that plan, but 
they ignored that plan, completely threw it in the trash can 
and said, we're going to do our own thing. Sadly, it had deadly 
consequences. At least 25,000 seniors died who shouldn't have 
died in nursing homes because those five Governors went against 
the President's plan.
    As we know, in America, nursing homes are governed at the 
state level, not at the Federal level. The guidance came from 
the Federal level, but these five Governors chose to go the 
other way. Some of them are still trying to hide the facts. 
Many of us have asked on this committee to get those facts. Not 
all have. I wish the majority would join us in getting the 
facts for those families, thousands of families who still want 
and deserve answers for why their loved ones died, many of whom 
could not even go and visit their father, their aunt, their 
grandmother who died in those nursing homes, who shouldn't have 
died if those five Governors would have followed the 
guidelines.
    Shouldn't be a political issue. Forty-five Governors got it 
right, Republicans and Democrats. If five got it wrong, we 
should all be wanting to find out why they got it wrong and 
find out how many people actually were victimized by those 
decisions. The fact that months and months later we still don't 
know and that data is being hidden, hidden by those five 
Governors is a disgrace. Everybody should be demanding those 
answers. But, again, the President laid out that plan. Forty-
five Governors followed it.
    A plan to have increased testing. On May 24, 2020, the 
Trump administration released a report to Congress called 
``COVID-19 Strategic Testing Plan,'' which built on the April 
27 national testing blueprint. This report explains that, 
quote, ``State plans must establish a robust testing program 
that ensures adequacy of COVID-19 testing, including tests for 
contact tracing and surveillance of asymptomatic persons to 
determine community spread.'' Through these robust national 
testing plans, President Trump built the world's greatest 
testing apparatus from scratch.
    Again, we didn't even know this disease existed at the 
beginning of this year. China was lying to us. This committee 
still has yet to hear a single--hold a single hearing on 
holding China accountable for their role in creating and 
spreading this virus while they lied to the world, while they 
hoarded PPE from us and every other country. We ought to have 
that hearing.
    But through the robust testing plans, what the President 
did to build this from scratch allowed the U.S. to conduct over 
100 million tests in only five months, hundred million tests, 
and that testing number continues to grow every day. We 
continue to see more companies come up with testing equipment 
that has been approved by the FDA to test people for COVID-19 
quicker, faster, and more readily available; but over a hundred 
million tests in over five months.
    A plan to safely reopen the economy. On April 16, 2020, 
President Trump unveiled the guidelines for opening up America 
again. Yes, that is part of the plan. You can still go read it. 
You could have read it months ago. It's been widely available. 
It's a three-phased approach to help state and local officials 
reopen their economies safely under the direction of each 
state's Governor. That's right, the President respects that 
each state is run by a Governor who's duly elected, who answers 
to the people of their state, who has legislators who have been 
meeting, determining the best safety guidelines for each of 
their states as well. Guidelines come out to help every state 
do the things they need to do to take care of the people in 
those states, and those guidelines get updated as we learn 
more, as the scientists learn more.
    The Atlanta Federal Reserve is predicting third quarter 
growth is on track to increase by 32 percent annualized. 
Because under this plan, President Trump has focused on helping 
rebuild what was the strongest economy in the history of our 
country and in the history of the world. Before COVID, we saw 
one of the strongest and healthiest economies our Nation's ever 
experienced, and it was working for every income level. In 
fact, the lowest income levels--and the data is out there very 
clearly--the lowest income levels were the ones who were 
benefiting the most. That's because under the previous 
administration we had lost our middle class. Literally, 
thousands of great American companies fled America, left 
America to go to other countries. Our tax structure was 
anticompetitive, crushing our ability to manufacture to make 
things in America again. And now we saw those jobs being 
brought back, those manufacturing facilities be brought back, 
and everybody was participating, every income level was 
benefiting, and then COVID hit.
    So, as we battle the virus through the plan that the 
President's laid out, working with the smartest people in the 
world, the best scientists in the world, Secretary Azar and his 
80,000-plus employees who are working hard to make sure that we 
keep learning and keep getting this information out.
    The President also is focused on rebuilding that strong 
economy again, and it's starting. We're seeing every month over 
a million jobs being created, people getting back in the work 
force using safety protocols, knowing that they can go get 
about their way of life again, differently, but start doing the 
things they need to do again, taking their tests again, going 
and getting their mammograms and colonoscopies again, which, 
unfortunately, we saw a dramatic drop. During the shut-in, 
people weren't going to their doctor to get their other tests 
run, and we are concerned that that's going to cause problems 
down the road. We need to encourage people to get back out and 
go see their doctor again, go get tested again, get their 
chemotherapy again if you're battling cancer. That will save 
American lives as well.
    The President, again, as part of his plan, put out a 
detailed plan to safely reopen our schools. We've had hearings 
on this. The American Academy of Pediatrics has laid out 
guidelines. The CDC has laid out guidelines for safely 
reopening school. The scientists and physicians at the American 
Academy of Pediatrics and the National Academies' Committee on 
Guidance for K-12 Education on Responding to COVID-19 recommend 
schools implement policies which enable students to learn in 
person.
    We've seen the science on the detrimental impacts on kids 
that are not learning in school. Many school systems have 
reopened because the guidelines are there for how to safely do 
it. Some have chosen not to follow those guidelines and are 
holding those kids back because other kids are learning, and 
the kids that aren't learning in the classroom----
    Mr. Raskin. Mr. Chairman, we're falling behind regular 
order here.
    Mr. Foster. Could we have some semblance of regular order, 
Mr. Chairman?
    Mr. Scalise. I think we both have given opening statements, 
Mr. Chairman.
    Chairman Clyburn. I have given the ranking member the 
liberties on opening statements, and I would hope he will 
conclude soon.
    Mr. Scalise. Clearly, both of us have experienced the same 
openings.
    And, finally, part of this plan, as we detail it, a plan to 
create a safe and effective vaccine. That's right, something we 
should all be applauding, the fact that there are four American 
companies, internationally respected, are in final stages of 
FDA approval for a safe and effective vaccine, not something 
where corners are being cut. I know the Secretary is going to 
talk about this more in detail, but it's very important on this 
point that we make a note that these companies are all 
following the best guidelines, not just in America, but in the 
world. The FDA guidelines are the gold standard. No corners are 
being cut, but, more importantly, all the focus of the best 
medical research in the world is now being put on finding a 
vaccine to protect Americans.
    And it is a dangerous idea that somebody would try to 
undermine public confidence in any one of these vaccines if 
they're approved by the FDA. If they don't work, they will not 
be approved. But if they're approved, it's because they went 
through all of the rigors of the gold standard of the FDA 
testing on thousands and thousands of people who have signed 
up. And I applaud, again, the 250,000-plus Americans who have 
agreed to participate in these trials. It's helped us get to 
this point in revolutionary pace because of the President's 
plan. Operation Warp Speed is part of that, which President 
Trump laid out.
    So, all of these, Mr. Chairman, are part of a comprehensive 
plan that continues to grow as we learn more, as we find out 
more, as scientists discover more in advance in ways that we 
maybe never seen in modern times. And we need to continue that 
approach. We need to continue that advancement.
    I look forward to hearing your testimony, Mr. Secretary.
    And, Mr. Chairman, I yield back the balance of my time.
    Chairman Clyburn. I thank the ranking member for yielding 
back.
    I would like now to introduce our witness. Today, the 
Select Committee is pleased to welcome the Honorable Alex M. 
Azar II, Secretary of Health and Human Services.
    Thank you, Secretary Azar, for being here today.
    Will you please stand so I can swear you in.
    Please raise your right hand.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Secretary Azar. I do.
    Chairman Clyburn. You may be seated.
    Let the record show that the witness answered in the 
affirmative.
    Without objection, your written statement will be made a 
part of the record.
    Secretary Azar, you are now recognized for your opening 
statement.

    STATEMENT OF THE HONORABLE ALEX M. AZAR II, SECRETARY, 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Azar. Chairman Clyburn and Ranking Member Scalise, it's 
an honor to appear before the House Select Subcommittee on the 
Coronavirus Crisis. I wish to express my gratitude on behalf of 
the Department of Health and Human Services and the Trump 
administration for the support that Congress has provided 
throughout this unprecedented crisis.
    This morning, we wish the President and the First Lady and 
every American fighting COVID-19 a swift and complete recovery. 
We also mourn the losses of Skylar, Cheryl, Jason, Demi, and 
all the other victims of COVID-19. But thanks to the heroism of 
so many frontline healthcare workers, scientists and others we 
are making progress. This progress is possible in large part 
because of the incredible women and men at HHS, the world's 
finest scientists and public health experts.
    I want to say a personal thank you to each and every member 
of the HHS team who has contributed to this response, and I 
want to underscore my commitment to their work today.
    I started my first job at HHS nearly two decades ago. Since 
my first day on the job, I have recognized and promoted the 
value of science and evidence and the civil servants who are so 
dedicated to our mission. That does not mean, especially in an 
unprecedented crisis, that there are no debates or 
disagreements within an agency or an administration, but my 
highest priority will always be to ensure that our efforts are 
science and evidence driven and consistent with the rule of 
law.
    Institutions like the CDC, the FDA, and the NIH are 
household names and gold standards for good reason, and I 
intend to keep it that way. No institution is infallible, but 
Americans deserve to know that the actions and communications 
coming out of our agencies, whether FDA approvals or CDC, 
MMWRs, or NIH guidelines, are grounded in science and evidence.
    Of course, that standard also applies to authorization or 
approval of a COVID-19 vaccine. I will be confident that my 
family and I should take the vaccine, and you should be 
confident that you and your family should take it too, because 
any vaccine will have met FDA standards as judged by FDA career 
scientists.
    We are as close as we are to distributing a safe and 
effective vaccine because of the dedication and humanitarian 
spirit of America's scientists and because of work that began 
long before the whole world recognized what an unprecedented 
threat we faced.
    Back on January 7, long before China had even admitted that 
human-to-human transmission was occurring, NIH researchers 
began vaccine development planning with Moderna. On Saturday, 
January 11, the morning after the viral sequence was finally 
shared by Chinese researchers, NIH scientists began work on 
that vaccine, which entered human trials on March 16.
    On February 3, with just 11 cases in the United States, 
BARDA began obligating flexible funds to go to private partners 
to support vaccine and therapeutic development. The next day we 
made our first therapeutic funding announcement to help 
Regeneron develop a therapeutic for monoclonal antibodies, 
which is now in phase three trials.
    On February 25, NIH began a clinical trial for Remdesivir, 
reporting positive results at the end of April. On May 3, we 
secured approximately 150,000 donated treatment courses 
distributed to the hardest hit areas of the country, and later 
secured more than 90 percent of Gilead's global production 
through September. Starting this week, Remdesivir is being 
distributed on the commercial market because it is no longer a 
scarce commodity.
    We built on these early efforts with Operation Warp Speed 
an unprecedented mobilization of HHS, the Department of 
Defense, and industry to simultaneously undertake all of the 
tasks necessary to deliver lifesaving products to the American 
people.
    Today we have four candidates in U.S. phase three clinical 
trials, and industrial scale manufacturing is underway on all 
six vaccines as to which we have contracted or invested. These 
are extraordinary results made possible by the men and women of 
HHS, by the support we have received from the Congress, and by 
the bravery and sacrifices of the American people.
    Thank you. And I look forward to your questions today, Mr. 
Chairman.
    Chairman Clyburn. Thank you very much, Mr. Secretary.
    We will now proceed with questions for the witness.
    I recognize myself for five minutes.
    Mr. Secretary, I really have only one question that I want 
to ask, and you may take the rest of my five minutes to answer 
it if you wish. We have experienced more than 207,000 deaths. 
And in a very memorable quote, the President said, in talking 
about the death toll--and I'm quoting him--it is what it is, 
end of quote. And the President says that he puts America 
first. However, of the 150 countries for which there is 
reliable, in this instance, data or reliable data, we rank 
142nd. Of 150 countries, we rank 142nd. That seems, to me, to 
be pretty close to last.
    Will you tell us why this Administration is coming in 
closer to last?
    Mr. Azar. So, Mr. Chairman, first, I'd like to just address 
the question of the 206,000 Americans who have perished. We 
regret any loss of life, let's be very clear about that. We 
wish we didn't have this unprecedented coronavirus pandemic, 
but people do die in pandemics. And our job, our mission, what 
gets me up every morning and what motivates the 83,000 
dedicated people of HHS, is the chance every day to make 
advances that help save some of those lives. So, people die. We 
try to minimize that. We try to mitigate human suffering. It is 
our mission. It's the core of everything that we do. And we 
work to save those lives.
    If we hadn't taken some of the aggressive early steps that 
we took, for which we are criticized as being xenophobic, 
overly aggressive, or alarmists, like shutting down travel with 
China, shutting down the economy, we could have lost, according 
to Dr. Birx and Dr. Fauci, as many as 2 million Americans. So, 
any loss of life is tragic and horrible, and we don't want to 
see a single loss of life, but our actions have made a 
difference, and our actions now with Operation Warp Speed will 
make a difference saving countless millions of lives in the 
United States and abroad in the future.
    But as we think about international comparisons, it's 
important to think about the data that you're looking at. The 
best way epidemiologically to measure a country's death rate in 
a pandemic, because there are various ways of counting deaths, 
attributing deaths, et cetera, is what's called excess 
mortality rate, how many people died in the previous year, how 
many people would have been expected to die this year, and what 
was the excess rate. And if you look at excess mortality from 
March to July among over-65 age people in the United States, 
those were 37 percent lower in the United States than in 
Europe. Excess deaths from April to June across all ages in the 
U.S. were substantially lower than the excess death rates in 
Spain, the United Kingdom, Belgium, Italy, and the Netherlands. 
Today, in fact, Spain and France actually have higher case 
counts per capita than the United States. France, I think I 
figured out, has about 126,000 cases per day at this moment, 
when we have 42,000 approximately. We don't want any cases, but 
I don't hear people talking about Emmanuel Macron that way.
    This is a pandemic. Disease spreads. It's dependent on all 
of us acting with individual responsibility, the three Ws--I 
hope we'll talk about this--wash your hands, watch your 
distance, wear a face covering when you can't watch your 
distance, and avoid settings where you can't do those three 
things, because that's the bridge. If we do that, that's the 
bridge to that day in the weeks and months ahead where we'll 
have those FDA gold standard vaccines. We'll have monoclonal 
antibodies to prevent and treat people at early stage of 
disease. It makes me very optimistic for our future, Mr. 
Chairman.
    Chairman Clyburn. Thank you, Mr. Secretary.
    I now yield to the ranking member for five minutes, five 
minutes.
    Mr. Scalise. Thank you, Mr. Chairman.
    And I join you in mourning the loss of every life. I wish 
that China didn't lie to America and the rest of the world. We 
could have done so much more to stop the spread of this disease 
out of China to save American lives, to save lives in every 
country, as you note, other countries that have seen, in many 
cases, higher death rates.
    If five Governors would have followed the guidelines that 
the President put out, we wouldn't even be on this list. Over 
25,000 deaths that should have never occurred, we wouldn't be 
on this list, but we still would have had deaths because it's a 
pandemic, and we mourn those.
    But we also want to learn how to properly respond to it. 
And, again, we've had hearings from some of the most respected 
doctors and scientists on this. Dr. Fauci, again, sat where you 
were, and he said decision after decision after decision, that 
President Trump actually made the right decision. First big 
decision was, after we figured out China was lying, China 
corrupted the World Health Organization, who, by the way, 
everybody had listened to them, and they were saying the 
disease doesn't spread from human to human. Well, we know that 
was a lie. Maybe we should have a hearing on why WHO was 
corrupted by China to do that. It cost lives.
    But once we figured it out, the President had a tough 
decision to make. Do we ban flights from China? Now, as you 
pointed out, not everybody was in agreement on that. Dr. Fauci 
noted President Trump made the right decision in banning those 
flights from China, and that decision saved American lives. 
While some called it xenophobic and wouldn't have done it, we 
would have had more deaths.
    Same thing with Europe. Dr. Redfield talked about the 
decision to ban flights from Europe, wasn't an easy decision 
because, as you know, some people were saying, well, you know, 
if we ban flights from Europe, we've got a lot of Americans 
that go back and forth to Europe. But President Trump was 
presented the scientific data that said we will save American 
lives if we do it. Dr. Fauci noted, as Dr. Redfield did, that 
decision saved American lives as well, tens of thousands, 
hundreds of thousands of American lives saved. Wish there were 
none. Wish China didn't lie.
    But as we sit here today, Dr. Azar, can you share, were you 
in some of those meetings where some of those tough decisions 
had to be made? And if you were, was the President's 
decisionmaking based on that scientific input that he was given 
to ultimately make those tough decisions that did save American 
lives?
    Mr. Azar. First, Congressman Scalise, if I could just 
correct. While a J.D., not a doctor, but thank you very much.
    Mr. Scalise. Secretary Azar, I apologize.
    Mr. Azar. Listen, the President, whatever you read in the 
media--I was with him in January, February, March, in those 
moments of tough decision, in those early days, and at every 
step took decisive, swift action without debate or hesitation.
    When we shut down--when we first, on January 17, started 
doing health screening of people from Wuhan, they had 67 cases, 
I believe, in Wuhan. This was a remarkable action. January 17 
we started health screenings at our airports for people coming 
from Wuhan, 67 cases, while China was still talking about no 
human-to-human transmission, no asymptomatic transmission. 
China was refusing to share the viral samples with us or 
provide any information or allow the CDC or WHO teams to come 
into their country.
    When we shut down travel with China on January 31, the 
President didn't hesitate, not at all, to shut that down, 
despite the economic dislocation that would happen with our 
trade with China.
    When he brought thousands of Americans and others back to 
the United States, we imposed the first Federal quarantine in 
50 years, and the President didn't hesitate on that.
    When the Diamond Princess was docking in Tokyo with all the 
infections on board and the Japanese were going to allow those 
people to get off into the homeland of Japan and get onto 
commercial flights to come back to America, we didn't hesitate 
to impose a quarantine on those people and bring them back to 
the United States through Federal quarantine.
    And we wrestled with Europe. People--some people thought it 
would cause a global depression, shutting down travel with 
Europe, and yet the President decided that day, shut down 
travel with Europe.
    Mr. Scalise. Thank goodness, he did.
    And I do want to ask you about the vaccine, because I'm 
very concerned by some of the people that are trying to 
supplant seeds of doubt with the vaccine because--first of all, 
have any corners been cut on a vaccine?
    Mr. Azar. Absolutely not.
    Mr. Scalise. Do you think it would cause even more deaths 
if people were led to be suspicious of a vaccine because of 
politics when, in fact, the vaccine, as we know from these 
great American companies, is going through the gold standard 
process?
    Mr. Azar. It would be a terrible disservice to public 
health to try to create vaccine hesitancy around the 
coronavirus. People will die.
    Mr. Scalise. Thank you, Mr. Chairman. I yield back.
    Chairman Clyburn. Thank you very much.
    The chair now yields to Ms. Waters for five minutes.
    Ms. Waters. Thank you very much for this hearing, Mr. 
Chairman. It's very important.
    I would like to ask, Secretary Azar, will you describe the 
increase in the coronavirus infections in this country right 
now, and name the states where the increases are taking place?
    Mr. Azar. So, we're facing increases at the moment 
primarily in the upper Midwest and further West. So, as we look 
at Montana, Wisconsin, I think North Dakota, Nebraska, that's 
where we're seeing primarily increases, which are 
overcompensating or equaling out some of the decreases that 
we've been seeing from the South, the outbreak in the Southwest 
and the Southeast that we----
    Ms. Waters. Give us some numbers. Tell us. Tell us.
    Mr. Azar. We'll be happy to get you those numbers.
    Ms. Waters. Give us the numbers.
    Mr. Azar. We'll be happy to provide you with those. Those 
are also available at coronavirus.gov. All of that data is 
right there.
    Ms. Waters. I would like to know, do you think that the 
President's rallies that he has gone to where people are not 
social distancing the 6 feet that our experts tell us they 
should be doing or wearing masks, does that contribute to the 
increase?
    Mr. Azar. So, we have consistent advice, which is to 
practice the three Ws for all individuals----
    Ms. Waters. I'm sorry.
    Mr. Azar [continuing]. Wash your hands, watch your 
distance, wear face coverings, avoid settings where you can't, 
and that applies to any setting, and people need to assess 
their individual circumstances.
    Ms. Waters. So, what you're saying is that these rallies 
where the President is and the people are not wearing masks and 
they are not socially distancing themselves the 6 feet, 
certainly adds to the increase in the possibility of these 
infections. Is that correct?
    Mr. Azar. Our advice is always the same, the three Ws, 
whether it's in any type of activity, to engage in those 
protected activities, but always to evaluate your individual 
circumstance.
    Ms. Waters. Have you ever talked to the President about 
that and given him any advice?
    Mr. Azar. I don't----
    Ms. Waters. Have you ever interacted with the President 
about him being a possible role model in this country and being 
one that could either help us to decrease the deaths and the 
infections by being a role model himself, wearing the mask and 
having social distancing, have you ever had that conversation 
with him?
    Mr. Azar. I'm not going to discuss my discussions with the 
President. But the President's guidelines since April have said 
wear face coverings--wash your hands, wear face coverings, 
practice social distancing. That's----
    Ms. Waters. Mr. Secretary, are you proud of the job that 
you have done?
    Mr. Azar. I don't like to speak in those terms. 206,000 
people have died.
    Ms. Waters. So, you don't like to speak in those terms 
about what you're doing. You don't like to talk about what you 
are saying to the President, who should be a role model to the 
people of this country. You can't give me any numbers about the 
increases that are taking place. You don't even know where 
those increases are taking place. And you come here today and 
testify with this paltry testimony that you're giving us and 
you expect us to be happy. We're very unhappy about what's 
going on, and we feel sorry that the President and his wife and 
others are now experiencing, you know, a positive test, et 
cetera.
    And how can you as the Secretary, with the responsibilities 
that you have, come here and not be very, very open with us 
about what is happening in this country, the increases and the 
deaths and what we need to do and the role modeling that we 
need to have, how can you come here without being prepared to 
do that?
    Mr. Azar. I am happy to do that if you would actually ask 
questions that illicit on that point. I will gladly talk to you 
about what the state of the disease is in the United States and 
the steps being taken.
    Ms. Waters. Well, talk to me about DPA.
    Mr. Azar. Yes.
    Ms. Waters. And tell me why, in fact, money has been 
diverted from DPA to build ships and military equipment instead 
of being directed toward PPE.
    Mr. Azar. I'm the Secretary of Health, not the Secretary of 
Defense. We've exercised 78 distinct domestic--Defense 
Production Act actions. We've been aggressive with it, whether 
on PPE, ventilators, on testing equipment, with regard to 
vaccines and therapeutics. We've used it anytime we've needed 
it across the entire supply chain.
    Ms. Waters. Mr. Chairman, I'm going to yield back my time. 
And I want to conclude by saying that the Secretary is not here 
with credible testimony today answering the questions that need 
to be asked. All that we hear is basically a defense, 
basically, of the President of the United States and a lack of 
openness and information about what is happening in this 
country, the increase in the infections and the deaths, and an 
unwillingness by this Secretary to be candid about what we need 
to do.
    I yield back the balance of my time.
    Chairman Clyburn. Thank you, gentlelady, for yielding back.
    The chair now recognizes Mr. Luetkemeyer for five minutes.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    Secretary Azar, I've got some questions for you here that I 
think will help respond to Ms. Waters' sort of out of the box 
questions here.
    Question No. 1, did those initial shutdowns actually work? 
Did the shutdowns, the initial shutdowns, did they actually 
work to stop the spread of the virus and save lives?
    Mr. Azar. They did absolutely. And Dr. Fauci and Dr. Birx 
said they saved upwards to possibly as many as 2 million lives.
    Mr. Luetkemeyer. Today, what percentage of those who are 
getting tested are COVID positive?
    Mr. Azar. We're about 4.4 percent positivity rate today.
    Mr. Luetkemeyer. Is that rate down or is that up?
    Mr. Azar. That's down substantially.
    Mr. Luetkemeyer. OK. So, Ms. Waters wanted some 
information, so now we've got that on the record.
    OK. What percentage of Americans who test positive end up 
in the hospital?
    Mr. Azar. Of those who test positive, those who end up in 
the hospital, I believe it's approximately--it's a very small 
number. I know upon more age that it's about 10 percent, but I 
want to get you the accurate----
    Mr. Luetkemeyer. Is that up or down back from where it was 
back in July?
    Mr. Azar. So, hospitalizations are down substantially----
    Mr. Luetkemeyer. OK. So, again, we again answered Ms. 
Waters' question.
    Of those who need hospitalization, what percentage of those 
individuals have unfortunately passed away?
    Mr. Azar. Of those who go into the hospital, it depends on 
the age group that we're talking about. For instance, age--if 
we stay out of the hospital setting, just age 70 and above, in 
April, about 30 percent of those individuals passed away who 
tested positive----
    Mr. Luetkemeyer. Is that number----
    Mr. Azar [continuing]. Now 5.7 percent.
    Mr. Luetkemeyer. Is that number up or down from where it 
was?
    Mr. Azar. It's down about 80 percent.
    Mr. Luetkemeyer. OK. So, again, we've answered Ms.--and 
most of the information, as you said, is on the website that 
Ms. Waters could actually go find.
    Mr. Azar. Coronavirus.gov.
    Mr. Luetkemeyer. Thank you very much.
    Mr. Azar. Incredibly transparent.
    Mr. Luetkemeyer. So, is it safe to say those initial 
efforts have worked, and the continuing guidelines that are out 
there and the things that are being done by the administration 
to guide and put out there for the Governors and the mayors of 
the various cities around the country, is actually working in 
those areas where they implement the guidelines correctly?
    Mr. Azar. Absolutely. That's why Florida, Texas, Arizona, 
California have turned around. Absolutely.
    Mr. Luetkemeyer. Thank you very much.
    Back in May, you wrote an article, and it's posted in The 
Washington Post here, ``We have to reopen--for our health.'' 
And in there, it's--you know, you make the comment--this is 
something that I've been talking about over and over again. 
You're talking about balancing health versus health. The health 
risk of COVID-19 balanced against the health, socioeconomic 
costs of keeping Main Street open and across the United States 
which are closed for business. And you could also add on there 
opening of schools.
    You know, you make--you make a comment here, one percentage 
point increase in the unemployment rate, increase of suicides 
one percent, three percent increase in opioid deaths. The lack 
of mammograms, 80 percent, and colonoscopies are down 90 
percent of testing. Normally you would have 1.7 million new 
cancer cases diagnosed. You see 80 percent drop in cancers that 
are identified.
    And then back in May as well, there's an article that 
appeared in The Hill, and they make the comment, as they go 
through and analyze all this, that there's probably about 
65,000 people per month die as a result of the lack of focus on 
these healthcare conditions that you identify in your article 
here versus, at that point in time, we had about 40,000 people 
dying per month. So, we actually have a 50 percent higher death 
rate among the population for the lack of attention because of 
the total focus on COVID.
    Not that we shouldn't do that, but my point is, and the 
point of your article is, we need to be looking at both sides 
of this. And I think it's important, because as we've found 
ways to manage this--I always tell people we have to keep this 
in perspective. The perspective is, yes, COVID is serious. We 
have to watch this. But as you just testified, 70 and over, 
that's where we really need to focus our attention. Those under 
70, if they live a managed healthcare life, can do this 
unafraid and function well.
    So, it's important, I think, that we understand how we can 
do this, how we can manage this. And your information is 
extremely important today, especially as we've opened schools 
around the country. Many in my district have in-person learning 
because we don't have broadband, we don't have much choice. As 
a result, there's minimal cases of problems that have popped 
up. And I think it goes back to point out that your information 
with regards to children, people that are certain ages, have 
minimal impact with--impacts on a minimal basis.
    I think it's important that we understand how this is all 
being driven, and I just wonder if you have a couple of 
comments on that, because I know that this article is quite 
extensive and quite informational.
    Mr. Azar. Well, it's what you said, there's got to be a 
balance. We need to protect the vulnerable from coronavirus, 
but we also have to recognize that mammographies are down 87 
percent, pap smears down 83 percent, colonoscopies down 90 
percent, CAT scans down 39 percent. Millions of kids haven't 
gotten their pediatric vaccinations because of the shutdown. 
Emergency rooms have seen drops--dramatic drops in people 
coming in with stroke and heart attack. They didn't stop having 
them.
    Mr. Luetkemeyer. The mental health aspect of this is really 
serious. I wish for your you to comment on that as well.
    Thank you, Mr. Chairman.
    Ms. Waters. Mr. Chairman, point of personal privilege.
    Chairman Clyburn. The gentlelady is recognized.
    Ms. Waters. Mr. Luetkemeyer attempted to answer the 
questions that I directed toward the Secretary. I did not raise 
questions of Mr. Luetkemeyer, and I do not appreciate that his 
attempt to put words in the mouth of the Secretary in order to 
protect him and use me as an excuse for having asked questions 
that certainly should have been understood by me.
    I yield back.
    Mr. Luetkemeyer. Mr. Chairman, I would love to respond to 
that if you give me a second. I think it's important that we 
allow the Secretary to answer questions, which she refused to 
do. And my testimony and my questions allowed the Secretary to 
answer her questions, which she wouldn't allow him to do.
    Ms. Waters. If he wants a colloquy on this, Mr. Chairman--
--
    Mr. Luetkemeyer. I'd love to colloquy.
    Chairman Clyburn. All right. We will do that at the end of 
the hearing or after the hearing, should I say. Thank you very 
much.
    The chair now recognizes Mrs. Maloney for five minutes.
    Mrs. Maloney. Thank you, Mr. Chairman, and I thank the 
witness for being here. I join my colleagues in wishing the 
President, the First Lady, his family, and the White House 
staff a speedy recovery. The news that we have watched unfold 
this morning underscores the importance of testing asymptomatic 
individuals who may have been exposed to the coronavirus.
    We do not know who exposed the President to the virus or 
who he may have exposed, but it's imperative that everyone who 
has come in contact with him get tested. And, in fact, everyone 
should be tested in America.
    On August 24, new guidance appeared on the CDC's website 
stating that most asymptomatic people should not be tested even 
if they have been exposed to the virus. So, Mr. Secretary, this 
guidance was directly contrary to the scientific consensus. And 
it has since come to light that this change was not made by CDC 
scientists but by the President's political advisers who edited 
the guidance over CDC's objections.
    One Federal official told The New York Times, and I quote: 
That was a doc that came from the top down, from the HHS and 
the task force. And it said, quote, ``does not reflect what 
many people at the CDC feel should be the policy,'' end quote.
    So, Secretary Azar, did you authorize the publication of 
this inaccurate guidance on the CDC website?
    Mr. Azar. So, I want to be clear because you've made a 
misstatement there regarding the guidance of August 24. The CDC 
has never recommended against asymptomatic testing. What the 
guidance posted on August 24 said was testing for individuals 
with symptomatic illness, individuals with significant 
exposure, including those who are asymptomatic, vulnerable 
populations, and healthcare essential workers. What happened 
was, there was a statement in the guidance that said 
asymptomatic close contacts do not necessarily need to be 
tested. The idea was they wanted to ensure that people not view 
a negative test as a get-out-of-jail card, that they were done 
because, of course, you have an incubation period. They wanted 
to make sure that you consulted with a medical professional or 
public health person to guide you through the period of your 
potential incubation. That was misinterpreted outside, that the 
CDC then later revised that to clarify and say, yes, test 
asymptomatic close exposures.
    Mrs. Maloney. Well, I think from the very beginning 
scientists were saying that asymptomatic, you could get the 
virus from an asymptomatic person. You could get it from 
molecules in the air, and then if you were next to, that's why 
we're all supposed to wear masks, to protect people from us if 
we may be asymptomatic. So, to say that on the guidance at the 
time and according to the CDC officials that were quoted in 
various papers, they said that it was overruling them and their 
position.
    So, who is responsible for making that change at that time?
    Mr. Azar. So, guidance that comes out of CDC is CDC's 
guidance. So, Dr. Redfield is the director of the CDC. And as I 
said in my opening statement, we harness the best doctors, the 
best scientists throughout the government throughout our 
agency. Dr. Fauci, Dr. Giroir, as well as Dr. Birx at the White 
House as the National Coordinator. There's debate, there's 
discussion on any of these critical guidances, but at the end 
of the day, if guidance comes out from CDC, it's Dr. Redfield 
supporting that and authorizing that; or if it's an FDA 
approval, it's FDA approving; or if it's NIH trials and data, 
it's NIH.
    Mrs. Maloney. Well, I'm glad that, on September 18, you 
reversed yourself and recommended that asymptomatic people do 
get tested if they're exposed to the virus. We are currently 
seeing a spike in many cases in many states.
    Has HHS determined how many of these new infections may be 
the results of Americans following your inaccurate guidance 
that they first read before it was corrected?
    Mr. Azar. That would have had nothing to do with the spread 
of disease. What we're seeing is community-based transmission 
right now in the upper Midwest and the Northwest. We had an 
initial--some cases coming from universities getting back 
together, but that seems to have settled down now. And what 
we're facing now is just plain old community spread as we saw 
in the Southeast and Southwest that comes from individuals not 
practicing the three Ws: wash your hands, watch your distance, 
wear your face coverings, stay out of settings where you can't 
do that, especially indoor restaurants that are overcrowded or 
bars that are overcrowded. And especially, I want to emphasize 
this to the American people: Home gatherings, you are not 
immune from catching the disease from extended family and 
multigenerational housing. You've got to be careful.
    Mrs. Maloney. Reclaiming my time. Reclaiming my time. In my 
opinion, changing what was on the CDC website is another 
example possibly of political interference with the select 
committee's recent analysis found that was directed by your 
department. The chairman mentioned 47 political interference 
with scientific actions, and another example is, just weeks 
ago, a report appeared on the CDC website concluding that the 
coronavirus is spread through airborne particles.
    Now this is a big deal, and it could change the way 
Americans protect themselves. Two days later, this information 
disappeared and officials claimed that an early draft was 
posted in error.
    So, Mr. Secretary, who directed that this information be 
removed from CDC's website and why? I can remember when reading 
it----
    Chairman Clyburn. Mrs. Maloney.
    Mrs. Maloney [continuing]. Very concerned about just 
walking down the street and now--so who directed this 
information be removed and why?
    Chairman Clyburn. Mrs. Maloney, your time has expired.
    Mrs. Maloney. Well, may he answer the question, Mr. 
Chairman?
    Chairman Clyburn. The chair now recognizes Mrs. Walorski 
for five minutes.
    Mrs. Walorski. Thank you, Mr. Chair.
    I'd like to agree with my colleagues on sending prayers and 
best thoughts, quick recovery to the President, President Trump 
and our First Lady for a quick recovery.
    Secretary Azar, thanks for being here. I wanted to start 
with the unprecedented efforts that are under way to develop, 
produce, and distribute a vaccine because, at the end of the 
day, that's our best shot, to get to some kind of normal in 
this country. All of America is praying that one or more of 
these promising candidates prove effective.
    Dr. Fauci appeared before the subcommittee back in July, 
and I asked him about that topic because that is the topic that 
every American is talking about at the kitchen table. I want to 
ask you the same questions I asked him.
    So, first, between existing government programs that cover 
the cost of vaccines and the fact that many, if not all, the 
companies working on a vaccine have said they will provide it 
at a not-for-profit price or low cost. Is it safe to say then 
that every American will be able to get a vaccine once it is 
approved?
    Mr. Azar. Yes. Everyone for whom it's indicated, yes.
    Mrs. Walorski. Next, Operation Warp Speed is enabling 
clinical trials for the most promising candidates to be run 
simultaneously which will help get a vaccine to market more 
quickly. Has this or any other aspect of Operation Warp Speed 
eliminated any safety steps in the vaccine approval process?
    Mr. Azar. No. We are, in fact, moving quickly because we 
can take the financial risk away from the drug companies, both 
on development and manufacturing, but the clinical trial 
standards remain the same.
    Mrs. Walorski. Again, just to be clear, the government is 
not compromising any safety standards in order to speed up the 
vaccine approval process, correct?
    Mr. Azar. That is correct.
    Mrs. Walorski. And the vaccine approval process is not 
subject to political interference, correct?
    Mr. Azar. The vaccine approval process, as I said in my 
opening, will be determined by career officials at FDA. Dr. 
Peter Marks, who is the center director for the Center for 
Biologics.
    Mrs. Walorski. Thank you, Secretary Azar.
    Dr. Fauci gave similar assurances of a safe, affordable, 
and widely available vaccine. However, this vaccine will only 
be as effective as the American people's faith in it.
    Secretary Azar, the other day, former Vice President Joe 
Biden said that he is the Democratic Party. So, when Democrats, 
including Joe Biden and Senator Harris sow doubt about the 
process, undermine the American people's faith in the vaccine 
and repeatedly say they do not trust President Trump's 
administration approval process, do these statements help or 
harm efforts to defeat coronavirus and overcome this crisis?
    Mr. Azar. So, I don't want to speak about those individuals 
in a political context. But I will say, as a general matter, 
that anybody that works to undermine confidence in the FDA's 
approval process or makes unfounded allegations that somehow 
politics will warp science, data-driven processes undermines 
public confidence in an eventual vaccine. Those vaccines can 
save lives, and they're so vitally important, especially for 
those who are disproportionately impacted by COVID--American 
Natives, African-American community, Latinx individuals.
    We have to get those individuals in our clinical trials, 
and we have to ensure that they will have confidence in the 
vaccine if and when it is authorized or approved by the FDA.
    Mrs. Walorski. Secretary Azar, Joe Biden has also said that 
he only trusts Dr. Fauci on a vaccine, but as we've discussed 
and as the record shows, Dr. Fauci has voiced his full support 
for Operation Warp Speed and assured us that any vaccine that's 
approved will be safe and effective.
    If Joe Biden says he trusts Dr. Fauci and Dr. Fauci says 
it's a safe vaccine, should Joe Biden and the Democrats be 
sowing doubt among American people about the vaccine and the 
need to rebuild our economy, safely get kids back in school, 
and otherwise return to a normal way of life?
    Mr. Azar. I hope nobody will undermine the public health by 
undermining confidence in the safety and efficacy of the 
vaccine that's approved by the FDA.
    Mrs. Walorski. Thank you.
    Mr. Chairman, I yield back.
    Chairman Clyburn. Thank you.
    The chair now recognizes Ms. Velazquez for five minutes.
    Ms. Velazquez. Thank you, Mr. Chairman, and good morning, 
Mr. Secretary.
    So, you know, as a New Yorker and as someone who contracted 
COVID-19, who went through--at the beginning of the crisis in 
New York, I would ask you if there is any value to wear masks?
    Mr. Azar. Absolutely. We recommend it.
    Ms. Velazquez. So, how do you describe or assess or what is 
your reaction to the fact that the First Family that was 
sitting at the political debate, Presidential debate, were not 
wearing masks? Does that make your job more difficult?
    Mr. Azar. Our recommendations are always to wash your 
hands, watch your distance, wear a face covering when you can't 
engage in social distance, and avoid settings where you can't 
do those three things. Now, the First Family and the protective 
aspect around the President is a different situation than the 
rest of us because of the protocols around the First Family, 
but our recommendations----
    Ms. Velazquez. No, no, no. Sir, reclaiming my time. 
Reclaiming my time. It sends the wrong message to the American 
people that the First Family, despite the fact that officials 
from the university went to them and asked them to follow the 
rules, that they were sitting there were not wearing the mask. 
That's the point.
    So, Mr. Secretary, President Trump said at a rally to slow 
the testing down, please. And it is also quoted as saying that 
testing is overrated.
    Did President Trump tell you to slow the testing down?
    Mr. Azar. I'm going to talk about the actions that we've 
done. We just this week announced 150 million----
    Ms. Velazquez. No. Can you please--I asked the question 
here. Reclaiming my time.
    I'm asking you, did the President tell you to slow the 
testing down?
    Mr. Azar. I will not discuss my interactions or 
conversations with the President.
    Ms. Velazquez. But it's a matter of public policy, sir. 
It's a matter of lacking a national strategy to combat the 
virus.
    Mr. Azar. The national strategy is available for all to see 
at coronavirus.gov, including the national testing strategy, 
including the reports that you received here at Congress about 
the national testing strategy on a periodic basis.
    Ms. Velazquez. Thank you.
    Rather than implement a national testing strategy, the 
administration has pushed down the responsibility down to the 
states, letting them scramble to develop their own strategy and 
find their own supplies. According to a report in Vanity Fair, 
White House officials refused to adopt a national testing plan 
this spring because they believe that outbreaks were primarily 
in Democratic states, and it will be an affective political 
strategy to blame Democratic Governors. And we have seen time 
and time again from the other side blaming Democratic 
Governors.
    Sir, can you tell me what is the situation in nursing homes 
in Texas and some of the other states right now?
    Mr. Azar. So, we've been improving in terms of deaths and 
infection rates in our nursing homes and what we've done is 
publish a list of red and yellow nursing homes that are 
experiencing excess cases, and we've had enhanced testing 
requirements that we've now imposed by force of law on nursing 
homes and including with financial penalties and conditions of 
participation if they don't maintain control of cases and also 
fatalities.
    Ms. Velazquez. So, isn't it true that nearly half of all 
nursing home cases have occurred in states led by Republican 
Governors?
    Mr. Azar. I don't know. I don't think in terms of 
Republican or Democratic Governors. I do think in terms of 
humans.
    Ms. Velazquez. You don't know. The point is that this is 
not a blue or red issue. This is an American issue, and so I 
resent when the other side comes here making statements time 
and again about Democratic states. It's the same situation that 
is happening in other states.
    Mr. Secretary, were you involved in discussions during the 
spring about whether to adopt an aggressive national testing 
strategy for the state-led strategy?
    Mr. Azar. We have an aggressive national testing strategy 
that also has states involved in it.
    Ms. Velazquez. OK. Secretary Azar, early this summer, CDC's 
guidance on schools clearly stated that fully reopening created 
the highest risk. I will come back with just this question on 
the second round.
    Thank you.
    I yield back.
    Chairman Clyburn. I thank the gentlelady for yielding back.
    The chair now recognizes Mr. Foster for five minutes. I'm 
sorry, Mr. Foster.
    Mr. Green had left, and so I see he's back.
    I now recognize Dr. Green for five minutes.
    Mr. Green. Thank you, Chairman, Ranking Member, and 
Secretary Azar. My Democratic colleagues take numbers out of 
context to blame President Trump for every death from COVID-19. 
They cite that there have been over 7 million positive cases in 
the U.S., and what they fail to mention is that the United 
States is one of the world's leaders in testing. We test more 
per capita than major countries like the U.K., Australia, 
Germany, Canada, South Korea, Italy, and many others. And 
that's according to factcheck.org.
    According to Johns Hopkins, our daily percentage of 
positive tests is also very low at 4.68 percent in comparison. 
India is at 7.2 percent. France is over 14 percent. Mexico is 
over 54 percent. Last month, The Wall Street Journal noted 
COVID-19 death rates in America had been on the decline. In 
April, the United States briefly peaked at 5.46 deaths per 
million, but for the past month, the United States has remained 
below three deaths per million. Despite the vast increase in 
testing, Mexico, the U.K., France, Spain, and Indonesia, and 
others have higher case fatality rates than the U.S., but the 
left says just the opposite. The left manipulates numbers of a 
global pandemic and makes every death and every diagnosis the 
responsibility of the President. That is despicable.
    We continue to learn new information daily and constantly 
change previous assumptions about this new pathogen. I'm 
following the medical literature constantly, and it is changing 
over time. The last mantra, though, is the same: Oh, there's no 
plan.
    Despite multiple plans like Operation Air Bridge and Warp 
Speed, to say there's no plan, that's just deception. They may 
not like the plan, but if you say there's no plan, that's not 
true. The administration's swift response prevented the rest of 
this country from facing the fate like the early days in New 
York City. And they blame COVID-19--what really--what they 
really fail to do is blame the CCP. I mean, they're the ones 
that lied about the virus, botched the response, hoarded PPE, 
and silenced whistleblowers.
    If China had acted two weeks earlier, according to a study 
by Columbia University--we've cited it before--84 percent of 
deaths in the United States could have been prevented. Now the 
total number of American deaths is over 207,000. If China has 
been transparent and we had been warned earlier, 173,000 
Americans would be alive. Yet Democrats, like our Vice 
President--former Vice President Biden, called President 
Trump's China travel ban xenophobic.
    I mean, that's crazy. Even Democrat Governors refused to 
accept the facts. I mean, I understand the previous comments, 
but Governor Cuomo refused to close down New York even after 
President Trump said we needed to. Recently, he even had the 
gall to cast doubt on the efficacy of the vaccine. He said, and 
I quote: The first question is, is the vaccine safe? Frankly, 
I'm not going to trust the Federal Government's opinion.
    He then added, quote: New York state will have its own 
review when the Federal Government has finished with their 
review.
    I don't believe New York has that capacity. Rather than 
trusting the nonpartisan experts at the NIH, CDC, and FDA, he's 
putting politics before science. He said he will not recommend 
New Yorkers get vaccinated until his team conducts a second 
review. That's going to lead to people dying. It's despicable.
    The fact is he's lost all credibility. A Columbia 
University study also found that, if New York had shutdown two 
weeks earlier, 20,000 people would be alive. Dr. Thomas Frieden 
said--he was the former commissioner of New York City's Health 
Department, head of the CDC, told The New York Times that New 
York City's death toll could have been reduced by 50 to 80 
percent had social distance measures been in place a week or 
two earlier. Trump even had to threaten a quarantine of New 
York. Remember that? Everybody seems to have forgotten that. 
And Cuomo--because Cuomo so badly botched the response.
    Additionally, his idiotic order to send COVID-positive 
patients back to the nursing home against CMS guidance likely 
contributed to thousands of elderly deaths in New York state. 
My fellow GOP colleagues and I have requested that this 
subcommittee investigate that. Unfortunately, no answer. They 
don't want to hold their fellow Democrats accountable. They 
don't even want to hold the Chinese Communist Party 
accountable. They're more interested in smearing President 
Trump in a desperate attempt to win back the White House. 
That's despicable.
    Since their radical leftist base has embraced socialism and 
communism, we can no longer expect Democrats to push back on 
China. They will continue to prioritize politics over people, 
over good oversight, and the lives of the American people.
    I yield.
    Chairman Clyburn. I thank the gentleman for yielding back.
    The chair now recognizes Mr. Foster for five minutes.
    Mr. Foster. Well, thank you, Mr. Chairman, and Mr. 
Secretary.
    I believe that public confidence will be crucial in the 
development and deployment of COVID-19 vaccines and 
therapeutics and that this will require robust and bipartisan 
oversight by Congress.
    So, in July, Chairman Clyburn, Congressman Dr. Green, and I 
sent a bipartisan letter to the Comptroller General asking for 
the Government Accountability Office, the GAO, to conduct real-
time oversight into Operation Warp Speed. The purpose of this 
GAO oversight is not to second-guess the work of our Nation's 
respected scientists, but rather to ensure that crucial vaccine 
and therapeutic research precedes as efficiently and 
effectively as possible, and that Congress and the public has 
confidence in the process.
    Part of the response to this has been excellent. For 
example, immediately after this, the Representative Dr. Green, 
who is a conservative Republican who obviously I agree with on 
approximately nothing. He and I are actually getting a 
classified briefing on the classified aspects of Operation Warp 
Speed. So, unfortunately, I also understand that HHS has been 
slow to provide full access to GAO to conduct this review, 
including even basic documents on decisionmaking processes, 
procurement, contracting, and so on.
    In my time as a scientist, I've had experience having a 
project, billion-dollar projects under real-time oversight by 
the GAO. And it seems like a nuisance at the moment but really 
can improve the quality of the project. The GAO is very 
sensitive to its role as a nonpartisan and a professional 
interface to Congress and GAO's operation under the bipartisan 
direction of Representative Green and myself really represents 
your best shot at having a high-quality scientific oversight by 
Congress into this.
    So, Secretary Azar, will the Department commit to providing 
full and prompt access by the GAO to this important oversight 
material?
    Mr. Azar. So, we've received your letter. We're working on 
a response. We are responsive and cooperative with our auditors 
from GAO. We actually have 32 open GAO COVID audits just on 
that subject alone, and we're working with GAO to assist them 
in fulfilling their responsibilities without negatively 
affecting the Department's life-saving mission during this 
historic pandemic. And we remain committed to working with and 
accommodating GAO in its COVID-19-related work.
    Mr. Foster. All right. It would be nice to see some 
improvement in the speed of response there.
    You are also absolutely correct in identifying the danger 
of vaccine hesitancy due to political interference. Do you 
believe this problem was improved or made worse by the 
political interference in the approval of hydroxychloroquine 
that was identified in Rick Bright's whistleblower complaint 
and his testimony to Congress?
    Mr. Azar. Well, I'm not going to discuss a matter of 
litigation----
    Mr. Foster. Was it improved or made better?
    Mr. Azar [continuing]. But what I will tell you is, the 
emergency use authorization for hydroxychloroquine, there's so 
much misunderstanding about that. What happened was, we 
received a donation of, I think, it was 3 million tablets from 
Bayer of product manufactured in Pakistan that was not in an 
FDA approved GNP facility. It's Bayer----
    Mr. Foster. OK. Well, there have been long congressional 
hearings on the details of this, so, please, if I could reclaim 
my time.
    Do you believe that the public misstatements by President 
Trump and the FDA Director on convalescent plasma made the 
problem of vaccine hesitancy better or worse?
    Mr. Azar. I know that the Commissioner was very sorry for 
that statistical misstatement that he made.
    Mr. Foster. Correct. And he is a scientist, and he as a 
good scientist acknowledged his mistake and apologized for it. 
Have you apologized for the mistake? Has President Trump, his 
boss and your boss apologized----
    Mr. Azar. Could you tell me which mistake I made? Because 
my remarks were actually reviewed before I walked on stage by 
Dr. Peter Marks----
    Mr. Foster. No, no. He works for you.
    Mr. Azar [continuing]. The career scientist who approved 
everything, and I was very clear about the 35 percent relative 
risk reduction----
    Mr. Foster. OK----
    Mr. Azar [continuing]. I used to be at a drug company. I 
know how to talk about----
    Mr. Foster. No. No, I understand that, but I think it's 
appropriate when a significant misstatement is made by 
someone----
    Mr. Azar. But what did I misstate?
    Mr. Foster. When someone who works for you makes a 
significant public misstatement, I think you have a duty----
    Mr. Azar. I'll be honest with you, on the stage there, I 
did not notice Commissioner Hahn's misstatement. It was an--I 
can assure--an honest misstatement by the Commissioner----
    Mr. Foster. But I think we can agree that that did not 
improve the problem of hesitancy, vaccine hesitancy going 
forward when you see that sort of--now, on August 22, President 
Trump insinuated that the government scientists who worked for 
you are trying to delay the approval of a vaccine, saying in 
his tweet: The deep state, or whatever, over at the FDA is 
making it very difficult for drug companies to get people in 
order to test these vaccines and therapeutics. Obviously, they 
are trying to--they are hoping to delay the answer until 
November 3.
    So, my question to you, do the scientists that work for you 
over at HHS represent a deep state dedicated to politically 
sabotaging the President?
    Mr. Azar. Our people at HHS are dedicated to the American 
people. I don't ever use terms like ``deep state.''
    Mr. Foster. Do you understand how demoralizing it is when 
the President makes statements like this about the scientists 
and then you do not stand up and confront the President for his 
demeaning of their motives?
    Mr. Azar. It's important that we have confidence in the 
work of FDA. I support our scientists. I support our career 
officials, and I support our agencies.
    Mr. Foster. Thank you. My time's up.
    I yield back.
    Chairman Clyburn. The chair recognizes Mr. Jordan for five 
minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Secretary Azar, let me thank you for testifying today, 
being with us this morning, and for your good work at HHS. We 
appreciate that.
    Secretary Azar, can states safely open up their economy?
    Mr. Azar. Yes. States can and should reopen their economy. 
There are ways to do that very safely.
    Mr. Jordan. You know, we've heard some talk earlier from 
some of my colleagues about New York state. I was just kind of 
interested in a little comparison here. Which state has more--
has a greater population, Florida or New York? Do you know?
    Mr. Azar. In terms of population, I believe New York is 20 
million--about 20 million, and I believe Florida is about 22 
million. So, I think they're roughly the same.
    Mr. Jordan. Roughly the same, but, of course, Florida has 2 
million more people. Do you know which state has more seniors 
in their respective state?
    Mr. Azar. I would have to believe Florida does. I don't 
have the exact data, but I would assume Florida does.
    Mr. Jordan. Yes. You'd be right in that assumption. Do you 
know which state has more seniors in nursing homes, Florida or 
New York?
    Mr. Azar. I, for the same reason, believe it would be 
Florida.
    Mr. Jordan. Sure is. And which state had more 
hospitalizations for COVID-19? Do you know?
    Mr. Azar. So, in terms of--and I wanted to correct 
something. I actually did have a note here on Florida has 
70,000 nursing home residents; New York has 100,000 nursing 
home residents. So, I did want to be precise on that. I don't 
have the numbers on hospital--hospitalizations: Florida had 
24,656 hospitalizations; New York City plus the state: 73,238.
    Mr. Jordan. Three times as many approximately.
    Is that right?
    Mr. Azar. Yes.
    Mr. Jordan. And then which state and, look, this is 
terrible no matter where it happens and we wish we had zero 
deaths from COVID-19, but which state had more of their 
residents, their citizens pass away from COVID-19? New York or 
Florida? Do you know?
    Mr. Azar. New York had over twice the number of deaths, 
32,864 COVID deaths versus Florida with 14,320.
    Mr. Jordan. And might that be because the leadership in New 
York didn't follow the guidelines that came from the Trump 
administration, specifically, as my colleague from Tennessee 
pointed out, didn't follow the guidelines for 46 straight days 
when they put COVID-positive patients back into nursing homes, 
might that have something to do with that terrible number that 
we saw just in New York?
    Mr. Azar [continuing]. We see from the data on nursing home 
deaths, New York had 4,650 nursing home deaths and Florida had 
3,200 nursing home deaths. I got to see first-hand the 
difference in treatment what Governor DeSantis did creating 
COVID-only nursing homes and COVID-only wing and then see what 
New York did where they scattered COVID-positive patients out 
of hospitals and basically sprinkled them across nursing homes, 
contrary to guidance, and then tried to blame us for having 
said that that should happen when our guidance was directly 
contrary, saying you should do COVID-only wings and protect the 
vulnerable.
    Mr. Jordan. So, Florida followed the guidelines, and guess 
which state is opened up today, has their economy much more 
open, guess which state is more open, Secretary Azar?
    Mr. Azar. I believe Florida has more open in terms of its 
removing restrictions.
    Mr. Jordan. Yes. It shouldn't surprise anyone that when 
you're able to follow the guidelines, do things in the safe and 
proper way, you can open up your state. And guess which state 
has the lowest unemployment, Florida or New York? Which do you 
think it is?
    Mr. Azar. Florida, I believe, has lower unemployment.
    Mr. Jordan. Yes. Like half. They got twice the unemployment 
level in New York that Florida has. And this is maybe the final 
thing. If we would've had states follow the guidelines, if we 
had states open up safely, imagine what our economy could be 
doing now. I mean, I think what the great American comeback is 
under way, but it's under way and you're seeing these good 
numbers that we're seeing as the economy starts to reopen in 
spite of the fact that New York, New Jersey, Pennsylvania, 
Michigan, Illinois, and California are still largely locked 
down.
    So, there are six of, I think, the 12 largest states 
population wise in our country still largely locked down, and 
yet, in spite of that, you've got the economy moving in the 
right direction. Imagine if they had followed the guidelines 
and be in a position where they could open up, like the state 
of Florida did, how much better off the country would be, how 
much better off families would be.
    Mr. Azar. We can open this country's economy up and we get 
the issues that we spoke of earlier, health versus health by 
being opened up and doing it in a safe way practicing good 
behaviors, it can solve all the other health issues that 
counterbalance against the impacts of COVID.
    Mr. Jordan. Well said. Again, thank you for being here 
today, thank you for your service to the country.
    Mr. Chairman, I yield back.
    Mr. Azar. Mr. Chairman, would you mind if I--could I 
correct something. I accidentally gave a wrong number earlier 
in reference to France. I said 126,000 per day. I had 
accidently--I believe their per capita rate is three times the 
U.S.' per capita daily rate, and I accidentally multiplied that 
out to the U.S. population. So, if I could--I just would like 
to correct that. I didn't mean to misstate that. My point was 
that France's daily cases on a per capita basis are higher than 
the United States' cases, but the 126,000 number was incorrect. 
I apologize for that, Mr. Chairman.
    Chairman Clyburn. Very good. Thank you very much.
    The chair now recognizes Mr. Raskin for five minutes.
    Mr. Raskin. Thank you, Mr. Chairman. And I want to add my 
thoughts for swift and complete recovery to the President, the 
First Lady, and the other 43,752 people who contracted COVID-19 
yesterday. And my thoughts are with the families of the 857 
Americans who died yesterday.
    Mr. Secretary, we now are over the 206,000 mark for 
Americans who have died from this terrible disease. That's more 
than--more Americans than we lost in World War I, 53,000 Korea; 
33,000, Vietnam; 56,000 Afghanistan and Iraq combined; more 
than 7 million infected. We are the world's leader in absolute 
case count and absolute death count, and we are the world's 
leader, unfortunately, in COVID denialism and conspiracy 
theory.
    We've heard from our colleagues to date that there is a 
plan, or there are multiple plans some said.
    Secretary Azar, has your plan been a success or a failure 
so far?
    Mr. Azar. Congressman, it's not useful, productive, or 
appropriate to talk about success when dealing with----
    Mr. Raskin. Well, how are we going to decide whether to go 
forward with this plan or to adjust the plan?
    Mr. Azar. We have saved, we think, millions of lives to the 
aggressive early action that we took. And while we mourn the 
loss of 206,000, these aggressive actions have actually 
delivered. Excess mortality rates----
    Mr. Raskin. Excuse me. I'm going to reclaim my time, sir. 
Do you agree with the President that there's nothing more that 
the administration could have done to prevent these deaths?
    Mr. Azar. I can only tell you that I wake up every day, and 
my whole team wakes up every day from the beginning of this 
doing everything we can to save lives.
    Mr. Raskin. OK, but let's take one simple action that could 
have saved tens of thousands, if not hundreds of thousands in 
the future lives. Encouraging every American to wear a mask. 
Now, the Director of the CDC Robert Redfield said that this is 
the most important, powerful public health tool that we have, 
encouraging everyone to wear a mask, but the President attacked 
Dr. Redfield for that.
    President Trump said there's a lot of problems with masks, 
and maybe they're not so good. He's mocked people who wear 
masks. In fact, he mocked Vice President Biden at the debate 
for wearing a mask. He said: Every time you see him, he's got a 
mask. He shows up with the biggest mask you ever saw.
    Do you agree with the President that there are a lot of 
problems with masks, or do you agree with the CDC Director that 
this is a powerful and necessary public health tool?
    Mr. Azar. I've been very clear ever since our scientists 
began recommending mask wearing, especially in April in the 
reopening guidance that the President published, that mask 
wearing is an important public health tool.
    Mr. Raskin. OK. If you look at the chart behind me, the 
Institute for Health Metrics, University of Washington, has 
calculated that if 95 percent of Americans wear masks, we'll 
save roughly 96,000 American lives by the end of this year, 
compared to the current path we're on where there continues to 
be sinister disinformation and propaganda against masks.
    The administration has turned masks into a partisan symbol, 
discouraging many Americans from wearing them. We spent several 
meetings of this committee designed to combat the coronavirus 
epidemic fighting about whether Members should wear masks when 
they're not speaking in the committee, this committee, if you 
recall back to the early days.
    This morning the select subcommittee released a report 
detailing dozens of times when there was political interference 
with the pandemic response. One time involved a plan to have 
the U.S. Post Service mail a mask to every American household, 
but the White House stopped it and used the masks for other 
purposes.
    An administration official told The Washington Post that 
the plan to send every American a mask was blocked due to, 
quote, concern from some in the White House domestic policy 
council and the Office of the Vice President that households 
receiving masks might create panic.
    Mr. Secretary, were you aware that the White House 
intervened to stop the plan to send a mask to every American?
    Mr. Azar. So, thanks to the great work of Dr. Bob Kadlec, 
our Assistant Secretary for Preparedness and Response, in 
February he worked with Hanes and Fruit of the Loom to get this 
retooling of cloth manufacturing for reusable masks, and we 
were able to get over 600 million of these. The initial plan 
was to send them by the postal service, packets of five, to 
every household. There was pushback saying why don't we send 
them where we needed most, where we have the outbreaks, and 
that's what ended up happening. They went out, but they went 
out targeted----
    Mr. Raskin. Do you favor sending the mask now to every 
American household?
    Mr. Azar. What?
    Mr. Raskin. Do you favor sending masks to every American 
household now?
    Mr. Azar. I don't know that that's needed. We've all 
figured out how to make masks. We have great mask 
accessibility. We've actually served I think 60 million masks 
to schools, and we've got smaller sized ones that we've 
developed, we're going to send out to schools, especially for 
our younger kids to make sure underserved have access to them.
    Mr. Raskin. OK. My time is expired, but I do want to ask 
you about the concept of herd immunity. So, that's what I'm 
going to be doing in the next round. Thank you.
    Mr. Chairman, I yield back.
    Chairman Clyburn. Thank you.
    The chair now recognizes Mr. Kim for five minutes.
    Mr. Kim. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for coming and talking with us 
today. When I go to my district and I'm talking to the 
constituents there, some of the toughest conversations that 
I've had are with people that have lost their health insurance 
since the start of the pandemic. You are our Nation's top 
health official, and I want to ask you, how many Americans have 
lost their health insurance since the start of the pandemic?
    Mr. Azar. So, Congressman, I know it's several million, but 
I would want to get that back to you in writing because I don't 
have that at my fingertips. I want to make sure you have 
accurate information.
    Mr. Kim. I would appreciate that. I would like to hear what 
your assessment is on that. I've heard numbers that are 
staggering, anywhere from 5 million so far up to 11 to 12 
million by the end of the year, and I urge you to get very 
familiar with that because I feel like that is a major part of 
your job.
    Would you consider that having more and more Americans be 
able to have access to healthcare is a critical part of your 
job?
    Mr. Azar. We want to make sure people have access to 
affordable healthcare and, if they would like, affordable 
access to health insurance, and that's why ObamaCare, of 
course, has a special enrollment period if anyone loses their 
employer-sponsored insurance, they actually can immediately 
enroll in the individual market in an ObamaCare plan at that 
time.
    Mr. Kim. Would you support opening up ObamaCare, the ACA, 
right now for those that maybe didn't lose it based off of 
employment, but people who didn't have--the tens of millions 
that didn't have insurance prior to this pandemic, would you 
consider opening it up for them?
    Mr. Azar. No, we don't because we think that, right now, 
through the Provider Relief Fund, what we've done is provide 
insurance--we've actually paid first dollar coverage for people 
who are uninsured, which is even better for COVID. So, this 
means you don't have a deductible, you don't have a copayment, 
and you don't have premiums. If you have COVID, you seek 
treatment, we pay first dollar coverage for that. And we've 
been processing claims for the uninsured individuals to ensure 
they get their COVID treatment.
    Mr. Kim. So, when it comes to those that have lost their 
health insurance, what would you say to those constituents of 
mine, what specifically have you worked on to help them get 
their health insurance back?
    Mr. Azar. Again, if you have lost your insurance because 
you lost your job, you have a special enrollment period and you 
may enroll in an ObamaCare plan.
    Mr. Kim. OK. Well, look, what I'm worried about right here 
is both in terms of having the staggering number of millions of 
Americans who have lost healthcare but also we now face this 
great threat in terms of having millions more. I wanted to ask 
you: We're in the middle of this pandemic here, would you think 
that now is a good time for people for millions of Americans to 
lose their healthcare during the middle of a pandemic? Is that 
a good idea or a bad idea?
    Mr. Azar. Well, I know what you're getting to. You're 
getting to the Texas litigation and the Supreme Court, the 
question of the Affordable Care Act. If the Court were to rule 
against the statute in large part or in its entirety, we're 
going to work with Congress, and we're certainly going to 
replace it. The President has never supported repeal only. He 
wants repealing and replacing. So, we are going to work with 
Congress and get people access to affordable health insurance 
and affordable healthcare if the Court were to do that. We are 
very far away from a final Court resolution on that. And 
nobody--if anyone tells you they know how the Supreme Court 
will rule on a case before they rule, they don't know what 
they're talking about.
    Mr. Kim. Well, I guess I was asking you directly, and I 
appreciate a yes-or-no answer. Do you think the ACA that it 
should be repealed if the Supreme Court were to move forward on 
that decision?
    Mr. Azar. Well, it would be a question of if--the Supreme 
Court would make the decision, my views aren't really relevant 
to that. If the Supreme Court finds that the individual mandate 
that taxed, which the President worked with Congress to get rid 
of, that by removing that it creates a position where the rest 
of the statute is unconstitutional and can't be severed, then 
we will work with Congress to replace it with access to real 
healthcare. You know, we've got to stop--I know we have a 
difference of opinion on this, but this notion that the ACA is 
the land of milk and honey where for somebody who makes $70,000 
a year in Missouri is paying--they're 55 years old, a couple, 
they're spending 30,000 plus bucks on their premiums. They're 
having a $12,000 deductible. That's not access to affordable 
healthcare for them, and we want to work with Congress to 
actually get them access to affordable healthcare.
    Mr. Kim. Well, I agree with you in terms of wanting to 
improve our healthcare. I hope that is something that all of us 
care about, but if you say that the President is committed to 
not repealing the ACA and, instead, reforming or replacing it, 
why then is the administration moving forward with this effort 
in front of the Supreme Court that would do exactly that, it 
would repeal without replacing?
    Mr. Azar. Well, the litigation position that the Attorney 
General's advocated there in the Supreme Court is a statutory 
construction, a constitutional position. The policy position, 
which I can speak to, is we want people to have a good system 
with affordable access to health insurance and affordable 
healthcare, and we're going to work in Congress. If the Court 
creates the situation where we need to replace it, we're going 
to work to get that.
    Mr. Kim. Were you consulted by the President or by anyone 
else in the Cabinet or the Justice Department before the 
Justice Department of this administration moved forward with 
this effort with the Supreme Court?
    Mr. Azar. Well, again, I'm not going to discuss my 
consultations with the President or Cabinet level 
consultations. I can't do that, as you know.
    Mr. Kim. Mr. Chairman, I yield back.
    Chairman Clyburn. I thank the gentleman for yielding back.
    I think that completes the first round of questions. Now 
vote is on, but I think we'll monitor that so that we can--OK. 
Very good. We'll now go to a second round, and I will yield 
myself five minutes.
    Mr. Secretary, the website of the Department of Health and 
Human Services states in its mission, and I'm quoting here, 
``is to enhance the health and well-being of all Americans, by 
providing for effective health and human services and by 
fostering sound, sustained advances in the sciences underlying 
medicine, public health, and social services,'' end of quote.
    I wholeheartedly endorse this mission. HHS must use sound 
science and sound science alone to enhance Americans' health 
and well-being. Do you, Mr. Secretary, believe that you and the 
other political appointees in this administration have 
fulfilled this mission during this pandemic?
    Mr. Azar. I do believe so, yes. I believe that--I've stood 
up for science, data evidence. We've made these--these doctors 
have become household names, Fauci, Redfield, Hahn, Birx, made 
direct access to the American people in ways that have never 
been done before to ensure they hear right out of these 
scientists' mouths the best information that they have.
    We've made sure those people have direct access to the 
President, and he's speaking with them and he's hearing from a 
multitude of the best science voices. I ensure that. I don't 
like to meet with the President without one of those top 
scientists being there or all of them being there. I try to 
always encourage science data-driven deliberations. That 
doesn't mean that our scientists and doctors can't have debate. 
There is debate in science. That's a core part of the peer-
review process. It's one of the hall marks of scientific 
enterprise, and I encourage and sponsor that.
    Chairman Clyburn. Very good. So, you think you're doing it. 
OK.
    Regrettably, the science-based mission of the Department 
was betrayed by senior political appointees like Assistant 
Secretary of Public Affairs Michael Caputo, who reports to you 
directly, and his former adviser Dr. Paul Alexander.
    I want you to take a look at this poster here. We've 
received emails that clearly show that Mr. Caputo and Dr. 
Alexander bullied and overruled CDC scientists who tried to 
inform the public of the risks of the coronavirus. On June 6--
I'm sorry--on June 30, after the CDC's Principal Deputy 
Director said people should wear masks, Dr. Alexander wrote, 
and I'm quoting here, her aim is to embarrass the President 
here because this career scientist disingenuous and 
duplicitous. On August 8, after the CDC reported that children 
could spread coronavirus, Dr. Alexander wrote, and I'm quoting 
here: This is designed to hurt this President for their reasons 
for which I am not interested in.
    In that same email, Dr. Alexander told CDC's Director: 
Nothing is to go out unless I read and agree with the findings 
how the CDC wrote it and I tweak it to ensure that it's fair 
and balanced and complete.
    These emails show clear the political interference in the 
CDC's efforts to carry out the Department's science-based 
mission.
    Mr. Secretary, will you renounce this kind of political 
interference and commit that it will not happen again?
    Mr. Azar. Mr. Chairman, as I said, I support debate. I 
support discussion. I support challenging each other. I do not 
support those statements. Dr. Alexander is no longer employed 
at this Department, and I won't get into personnel matters, but 
there is a way to have discussion and debate that is proper, 
respectful, appropriate.
    And let me be clear, especially about that second quotation 
there: I do not know of any circumstance where anybody other 
than Dr. Redfield and Dr. Birx would have authority over 
determining the final publication of an MMWR, which is that 
issue. Dr. Alexander, to my knowledge, never had that 
authority. I would never have supported that, but I do not find 
that tone and tenor of discussion to be acceptable in my 
Department.
    Chairman Clyburn. Well, thank you, Mr. Secretary. You may 
recall when these statements came out, I wrote you a letter 
asking that these people appear before our select subcommittee.
    Mr. Secretary, not a single staff had been made available 
to appear before this subcommittee, not a single one. I would 
hope that you will agree and begin producing the documents and 
allowing these witnesses to come forward next week. I'll be 
glad to come back up here, and I'm sure my ranking member will 
participate.
    Will you do that?
    Mr. Azar. Our staffs are working to secure the agreements 
on the procedures to make that happen. We want to make that 
happen. We're working on the final arrangements on that.
    Chairman Clyburn. Thank you. I took that as a yes.
    Mr. Azar. Well, they need to get to agreement on 
appropriate procedures to protect individuals. Some of these 
are some of our career CDC officials, for instance, and as you 
know, Mr. Caputo's on medical leave right now with a very 
serious medical condition.
    Dr. Alexander no longer works at the Department or the U.S. 
Government, but we're working with your staff to get to 
agreement on how this can be facilitated.
    Chairman Clyburn. Well, I think that, if my memory serves, 
that I'm here in person and you're here in person, but the 
ranking member has on occasion participated virtually and we'll 
be pleased to have virtual testimony from them if they will 
agree to appear so we don't have to come back if necessary. I 
think we are doing that because of you and me, but we can do it 
virtually. OK?
    Mr. Azar. So, we'll get our--I think they're in the final 
stages of getting things arranged.
    Chairman Clyburn. Thank you very much. I'll yield to the 
ranking member five minutes.
    Mr. Scalise. Thank you, Mr. Chairman.
    Chairman Clyburn. Maybe 30 seconds more, five minutes and 
30 seconds.
    Mr. Scalise. We're good, and I appreciate the second round. 
Secretary, thank you for continuing to answer these questions. 
And when we talk about vaccine advancement as well as other 
therapies--you talked about Remdesivir, hydroxychloroquine. 
I've talked to internalist doctors who are using it 
effectively. Of course, a doctor is the one who knows what's 
best for them and their patient. Hopefully, we continue to make 
as many options available that are safe to doctors so that they 
can continue to help treat patients.
    Are you seeing an increase and an improvement in the 
ability to effectively treat people who are COVID positive 
compared to where we were a few months ago when this disease 
came from China?
    Mr. Azar. Congressman, the advances in our ability to care 
for people and help them recover who suffer from serious 
consequences from COVID have been nothing short of 
revolutionary, as I think I mentioned earlier. Just to take one 
data point, in April, an individual aged 70 or above who 
contracted COVID would have a 30 percent chance of dying. Today 
that's about 5.7 percent chance. That's thanks to the 
President's efforts to get Remdesivir approved and have 
supplies, steroids for lung injury, now convalescent plasma in 
over 80,000 patients. Just even as we've learned about how--you 
mentioned earlier how to use ventilators better, when you use 
them, how to use forced oxygen better, how to use proning and 
quality of care. And my Department's played a vital role in 
educating providers across the country as they've seen surges 
in declines in cases to enhance knowledge among providers.
    Mr. Scalise. And that's something I've seen directly. In 
fact, we've here in Congress passed some of the money to give 
the Department the ability to respond even more effectively to 
come up with and produce vials of vaccine. As these companies 
are in the final stages of testing, we're not waiting for one 
to be approved to start manufacturing the vaccine. It's part of 
Operation Warp Speed. In the old days, they would say, well, if 
one clears through the final stage, then they'll start 
producing it, and, of course, that would be months later.
    We're actually making those now. Now, obviously, if they're 
not approved, then those go in the trash can, but if they're 
approved, that saves us vital months. Is that part of President 
Trump's plan that we're doing that, or is that how it's always 
been done?
    Mr. Azar. No. This is historic and unprecedented that we 
are--at the same time that we're advancing the development to 
demonstrate safety and efficacy, we're literally making, as we 
speak, we have millions of doses of vaccine, and we're making 
them in industrial scale across six manufacturers right now, 
something no drug company ever would have been able to do on 
their own without the support of the U.S. Government. That was 
the innovation President Trump created in Operation Warp Speed.
    Mr. Scalise. And with any other virus, have you seen a 
vaccine potentially created within a year of a virus being 
known to mankind?
    Mr. Azar. Never, never. I worked very hard on the Ebola 
vaccine. I played a critical role in the Democratic Republic of 
the Congo on eradicating Ebola in the 10th outbreak in the 
eastern DRC and they're--thanks to America, we had a Merck 
vaccine. We had various monoclonal antibodies, but those took 
years to get. We're talking months.
    Mr. Scalise. And this is another story again that's not 
told because, unfortunately, some people want to just not 
politicize everything. And, you know, if the vaccines not a 
week later after the virus is known, then it's all the 
President's fault. And, you know, we see this, yet we're 
literally on the verge of four potential vaccines less than a 
year later with millions of vials already being mass produced 
in part using the Defense Production Act, which the President 
has been very effective at using as well.
    Let me ask you about New York because this is very, very 
concerning, again. As you see some people trying to plant seeds 
of doubt in a vaccine, which would be deadly if they did it, 
deadly. New York's saying that they will not allow their 
citizens to have access to the vaccine until they have some 
other approval process.
    Have you seen New York's approval process? Do you know how 
long it would take? How many months would people in New York be 
denied a vaccine if the Governor gets his way?
    Mr. Azar. I have been unbelievably distressed by the 
remarks of the Governor. It undermines public health. It 
undermines confidence in vaccines, not just for COVID but for 
kids getting their MMR vaccines. And New York has been a hot 
bed of the antivax movement.
    Mr. Scalise. Right. Does New York have their own testing 
process that you know of, Secretary?
    Mr. Azar. I'm sorry?
    Mr. Scalise. Do you know if New York even has a testing 
process like Governor Cuomo talks about?
    Mr. Azar. Of course, they don't. We have a single Federal--
--
    Mr. Scalise. I mean, how many months would the citizens of 
New York be denied the ability to save their own lives if 
Governor Cuomo gets his way, God help us. Hopefully he doesn't 
get his way. But it's a ludicrous statement, and again, these 
are the kind of statements that undermine public confidence. I 
know you said that you agree with that as well.
    I do want to jump to China real quick because, 
unfortunately, this is not an area where the committee has 
gone, and we need to go there further, but I was in some of 
those meetings in the White House months ago when we were 
trying to find out more when we knew nothing about this virus.
    Chinese health officials wanted to let us in. Our top 
health officials wanted to go in. Wasn't it the Chinese 
Communist Party that stopped us from going in and that 
corrupted the World Health Organization from, at least, being 
honest about the human-to-human transmission?
    Mr. Azar. The Chinese Communist Party delayed by month and 
a half the CDC or WHO teams getting into China. I offered that 
on January 6----
    Mr. Scalise. Do you know how many lives we could have saved 
if the Chinese Communist Party didn't deny?
    Mr. Azar. Countless lives there and here from what we would 
have learned. We ended up learning a great information for 
being able to be there about how to care for patients, but that 
was a month and a half delayed.
    Mr. Scalise. So, lives would have been saved. Thank you, 
Mr. Secretary.
    And I yield back, Mr. Chairman.
    Chairman Clyburn. Thank you, Mr. Ranking Member.
    The chair now recognizes Ms. Velazquez for five minutes.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Secretary Azar, early this summer, CDC's guidance on 
schools clearly stated that fully reopening created the highest 
risk. In July, the CDC released new guidance substantially 
edited by White House officials that downplayed the risks of 
reopening schools.
    Secretary Azar, were you involved in instructing the CDC to 
issue new guidance?
    Mr. Azar. I'm not aware of an instruction for CDC to issue. 
They update their guidance, and there is a collaborative 
interagency process as there would have been, I assume, under 
President Obama with the Ebola response or H1N1. It's quite 
normal that you have a White House coordinated guidance review 
process.
    Ms. Velazquez. OK. And you believe, and it is your opinion, 
that it's not appropriate for political advisers to write 
public health guidance?
    Mr. Azar. I believe it's perfectly appropriate for all 
individuals who have competence and expertise to contribute, 
whether politically appointed or career officials. Dr. Redfield 
is politically appointed. He runs the CDC. He is the final 
signoff on CDC guidance.
    Ms. Velazquez. But political advisers such as Jared 
Kushner?
    Mr. Azar. I'm sorry. Who?
    Ms. Velazquez. Jared Kushner.
    Mr. Azar. I'm not aware Mr. Kushner's involvement, but I 
don't know that I'm aware of that. But it's perfectly normal 
for there to be--all guidance is required to go through a White 
House process. That's Presidential executive order. Significant 
guidance has to go through White House review, and who sees it 
there, I don't know. But I want to be very clear about that: At 
the end of the day, the CDC Director must agree with it or it 
does not go out--any edits, any changes, any suggestions.
    And I'll back them up on that.
    . The CDC, the CDC reports that over 40 percent of all 
COVID cases between the ages of 5 and 17 are Latinos. Isn't it 
true that there's evidence that young children can transmit the 
virus?
    Mr. Azar. Oh, yes, children can transmit----
    Ms. Velazquez. OK. Thank you.
    And you agree that transmission of COVID is higher in 
poorly ventilated or enclosed areas?
    Mr. Azar. Congresswoman, on that issue, I just want to be 
careful to--I want to defer to the experts at CDC in terms of 
if they--I believe that to be the case, but I would want to 
refer you to CDC guidance on that rather than speculating on 
that front.
    Ms. Velazquez. OK. So, are you aware that a recent GAO 
report found that 36,000 schools nationwide need ventilation 
upgrades?
    Mr. Azar. And that's what, you know, we have--I think 
there's in Congress's statute that you passed, I think, $13 
billion of funding for schools. I do believe there are some 
issues on ventilation systems that can be good upgrades to 
freshen the air and keep it going and also keep adequate 
humidity levels, which is going to be important----
    Ms. Velazquez. I understand.
    Mr. Azar [continuing]. In terms of the dehydration of the 
product.
    Ms. Velazquez. Do you think it's right? You know, we need 
to give peace of mind to the parents in this country that it's 
safe to send kids, especially in low-income communities where 
the schools and the infrastructure is old and it hasn't been 
upgraded, do you think it's right to say that we should fully 
reopen the schools in those areas?
    Mr. Azar. We do believe we can reopen. Fully is a question. 
The question is there are steps you can take, cohorting kids, 
creating social distance, moving teachers from classroom to 
classroom, delivering meals to the kids, social distance in the 
classroom, of course, face covering wearing, and also, at all 
points, the individual making decisions what's right--for the 
parent and the guardian deciding what's right for their kid and 
what vulnerabilities they or other household members have. 
That's vital they be in the driver seat.
    Ms. Velazquez. And do you think that we have enough money 
nationwide to be able to upgrade all of those schools?
    Mr. Azar. I haven't looked at that issue of funding.
    Ms. Velazquez. Well, you should because you are----
    Mr. Azar. Well, there's $13 billion of Department of 
Education funding that I don't believe has been fully allocated 
or pulled down by the school districts.
    Ms. Velazquez. OK. It hasn't been fully allocated. But my 
question to you is, given the GAO report and the thousands of 
schools nationwide that need ventilation upgrades, my question 
to you--you are the Secretary of Health. You are the one saying 
that presumption should be we get our kids back to school.
    So, do you feel confident that having 36,000 schools 
nationwide in need of ventilation upgrades, that the money that 
is there that has been allocated is appropriate.
    Mr. Azar. Well, there's several assumptions there in your 
multiple questions. The key point is the presumption is kids 
should be back in a physical environment. They're not being 
there, Dr. Redfield, Dr. McCance-Katz have made it clear, is 
destructive to children's physical, emotional, mental health, 
and their development.
    It can be done safely, but we always have to look at the 
individual circumstances to make sure it's safe in any 
particular school or situation and an adequate plan to make 
that happen.
    Ms. Velazquez. The fact of the matter is that there are 
36,000, according to the GAO report, in need of upgrades. And, 
therefore, to make such a statement as ``Let's send the kids 
back to school'' doesn't provide the peace of mind to the 
parents of this country.
    Reports indicate that White House pushed for testing 
guidelines to be changed to recommend that people without 
COVID-19 symptoms abstain from testing. But 16 percent of kids 
with COVID-19 are asymptomatic. So, what testing guidelines are 
you recommending for schools, especially knowing the 
significant impact COVID-19 is having on children of color?
    Mr. Azar. So, we recommend the testing of asymptomatic 
close contact. So, in a disease tracking situation, that's why 
we work to get BinaxNOW testing out, a hundred million of those 
tests that we've asked the Governors to prioritize for the K-12 
kids, to do contact tracing, as well as to assist with 
surveillance because, in addition to close contacts, we want to 
ensure that we have adequate surveillance systems to identify 
if we're seeing emerging disease outbreaks.
    Ms. Velazquez. Thank you. I yield back.
    Ms. Waters. Mr. Luetkemeyer, you're recognized for five 
minutes.
    Mr. Luetkemeyer. Thank you, Madam Chair.
    Secretary Azar, I live in a very rural area, and a big 
chunk of my district is very rural. I know throughout this 
pandemic a lot of the healthcare services have been delivered 
by the telehealth way of going about it. And to me this is 
extremely important, going into the future, that we allow this 
to continue to happen. I know there's been some rules and 
regulations that have been probably waived or changed to be 
able to accommodate.
    I would like to give you a few minutes to talk about some 
of the rules, regulations, problems, the things that we can 
implement, you know, suggestions for Congress on how we can 
make this a better service between the healthcare professionals 
and the constituents and customers of this country for the 
betterment of their healthcare.
    Would you like to comment just for a few minutes on that?
    Mr. Azar. Well, absolutely.
    Thanks to the national emergency powers of the President, 
we've been able to for the first time ever really be able to 
release the power of telehealth. We've brought healthcare into 
the 2lst century for the first time. And when you go out and 
visit hospitals and doctors and community health centers, as I 
have done, you see that it has been a truly patient-centered 
change in healthcare. And it's bringing overall healthcare 
costs down and creating a better experience.
    I've been to community health centers which treat the 
underserved, and they're delivering 90-plus percent of their 
care by telehealth now and having drive-through lab testing, 
and sample taking, vaccinations, et cetera. So, they are 
combining them.
    Past assumptions were that telehealth would be additive and 
just add cost to the healthcare system, but we're seeing it 
actually improves quality and decreases costs. We need Congress 
to act, though, on this because we can't enshrine in regulation 
everything we've been able to do. We can do much more in rural 
America under statute. We can't do that in urban.
    In addition, in rural, you still have to, under the 
statute, show up at a doctor's office. You can't do it from 
home. You have to have a preexisting relationship with a doctor 
or hospital before. We've waived all of these things, thanks to 
President Trump, under the emergency powers. But Congress will 
have to act to make those flexibilities permanent, so we really 
hope that Congress will act. I don't think you can walk this 
backward, nor should you.
    Mr. Luetkemeyer. Well, I appreciate that because I think 
what we really need to do is, as we wind down from this thing 
at some point, we need to get together and figure out the 
rules, regulations, what it's going to take to implement this 
on a national basis, on a permanent basis to be able to be 
helpful to both the healthcare professionals and the 
improvement of health for our citizens. So, I thank you for 
that.
    I know I saw this week, I think it was Wednesday, September 
30, in, I think it's the Wall Street Journal here, there was an 
article with regards to Regeneron and their--the medication 
that they're coming up with. It looks like they're well on the 
way to perhaps by the end of the year have this drug, RGN 
COVID-2, that could be helpful to produce antibodies. Would you 
be willing to talk about that today? I realize that we're not 
there yet, but this really sounds good.
    I know it's an article in the paper, so there's public 
awareness of it. So, I think, you know, to let people know that 
there are--besides vaccines, there are therapeutics that are in 
the pipeline that could be beneficial as well, that are being 
tested and being worked on as we speak.
    Mr. Azar. Yes. And I actually think you saw that--that's an 
initial phase one dose range and clinical trial data for 
Regeneron. These are called monoclonal antibodies.
    So, you remember we authorized convalescent plasma, which 
is the plasma from a survivor patient. You have antibodies in 
your body. We can actually synthetically make those antibodies 
at ranges that could be a thousand times more potent than what 
we can get out of an individual's plasma and synthetically 
produce in mass quantities, be thinking hundreds and hundreds 
of thousands of doses in very short order.
    And we have manufacturers in the country, such as Eli 
Lilly, Regeneron, Astra-Zeneca, who have significant monoclonal 
antibody programs. We're seeing very promising early data that 
has been made public. We could be literally many weeks to a 
month or two away from having data to support emergency 
authorizations in these if the data proves that they're safe as 
well as effective.
    Mr. Luetkemeyer. Now, you mentioned a couple of times today 
emergency authorization. We had--I think Dr. Fauci has made a 
comment on this before. Would you like to explain to us what 
emergency authorization actually is?
    Mr. Azar. Yes, so especially with vaccine, if I could. So, 
when we think about therapeutics, we might approve, authorize a 
vaccine for--a therapeutic for emergency use on a more limited 
data set as we continue to do trials. For a vaccine, because 
somebody is healthy and you're putting a vaccine to them, the 
FDA is requiring here 30,000-person clinical trials, so 15,000 
placebo, 15,000 active, and demonstrating statistically 
significant results.
    That's the same for emergency or full on licensure of the 
vaccine. The only real changes that happen with an emergency 
use, are you would have ongoing safety data collection through 
a massive national pharma vigilance program, and you would have 
ongoing--there are three validation lots needed for inspection 
of the manufacturing facility. But the actual data package, 
other than that longer term safety net, is the same.
    Mr. Luetkemeyer. Well, Dr. Fauci made the comment that the 
emergency authorization could be--is probably necessary 
whenever you see the data is so overwhelming that it would be 
unethical and immoral to withhold those vaccines or those drugs 
from people because it could be saving lives while you're 
sitting there continuing to I dot and T cross.
    Mr. Azar. Right, especially when you have safety. If you've 
got like with convalescent plasma, you see well demonstrated 
safety, and then you see clear trend of efficacy, it becomes an 
ethical question, shouldn't you allow people to try that.
    Mr. Luetkemeyer. OK. Very good. My time is up.
    I yield back. Thank you.
    Ms. Waters. Thank you very much.
    I now yield myself five minutes for questioning.
    Mr. Secretary, I was reviewing comments made by the 
President at a Labor Day press conference where he gave this 
rosy prediction. He said, one, a vaccine would be available 
very soon. You could have a very big surprise coming up. You 
will be very happy, the people will be happy, the world will be 
happy, the people of the world, everybody is going to be happy, 
and you know what I'm talking about, before that very special 
date.
    Then we have, you know, companies that are involved with 
the development, like Moderna, who said they would not be ready 
to seek Emergency Use Authorization from FDA before November 25 
at the earliest.
    Now, when you have the President of the United States 
making these rosy predictions, and you have contradictions 
about those who are responsible for the development, what do 
you think that does to your credibility and the credibility of 
FDA?
    Mr. Azar. I think the President is trying to be hopeful, 
put out hope for individuals. But I want to be very clear, this 
will be determined by data and independent processes.
    So, for instance, we don't even see data on these clinical 
trial programs until an independent data and safety monitoring 
board determines that the data in the clinical trial has 
achieved pre-specified statistical end points, and then it goes 
to the----
    Ms. Waters. Reclaiming my time. Do you think--you just 
described the President's rosy predictions as being hopeful. 
There's a difference, you know, between being hopeful and 
misleading the people of this country.
    Do you think it's helpful to you when the President is out 
making these kinds of predictions?
    Mr. Azar. The results will be driven by data. If a company 
produces data that's independent, that in the beginning of 
October determines a vaccine is safe and effective and submits 
it to FDA and FDA's career scientists through an advisory board 
process determine it's safe and effective----
    Ms. Waters. Reclaiming my time.
    Mr. Azar [continuing]. Then that's what it is.
    Ms. Waters. Reclaiming my time.
    Do you believe Moderna when it says it will not be ready to 
seek Emergency Use Authorization from FDA before the latter 
part of November?
    Mr. Azar. Well, what Moderna was saying with November 25 is 
that's based on the guidance that they received from FDA.
    Ms. Waters. Whatever it's based on, do you believe them?
    Mr. Azar. Well, you need to have the context. Their 
guidance was they need to have 60 days from the median patient 
completion in the clinical trial, and that would calculate out 
to November 25----
    Ms. Waters. Let me just try and frame this question, these 
questions a little bit differently.
    Do you believe that there is a contradiction between this 
hopefulness that you describe, that I describe as a prediction, 
and what Moderna is saying and others are saying about the 
readiness, when a vaccine will be ready?
    Mr. Azar. No, because the----
    Ms. Waters. Is there a contradiction?
    Mr. Azar. No, because the CEOs of Moderna and Pfizer I 
believe both have said that we may see data in October. It's 
event driven. It's data and science and event driven. Nobody 
controls when we see data and whether we hit results----
    Ms. Waters. So, do you think that the--what you call 
hopefulness by the President is helpful and it builds 
confidence when the American people see that what he is 
predicting has no credibility and it is contradicted by those 
who are responsible for the development?
    Mr. Azar. What the President----
    Ms. Waters. Is that a problem?
    Mr. Azar. Well, you're incorrect. What the President has 
been saying, in terms of inspiring hope, is within the range of 
possibilities of vaccine development, but it----
    Ms. Waters. No, no, no. Excuse me. Reclaiming my time.
    He didn't say there is a possibility. This is more than 
what you're describing as hope. This is the President of the 
United States of America, the leader of the greatest Nation in 
the world, and should be, in addition to being a role model, 
which of course, we question, we should be able to rely on what 
he says.
    We should be able to have confidence that he is giving us 
good information, correct information. And as you know, as you 
sit here, no matter how you try to frame it, the President of 
the United States has not been the kind of role model that 
could create confidence in your agencies, what he has in 
himself, et cetera, et cetera.
    And I know that you said you will not reveal whether or not 
you have any conversations with the President about whether or 
not he's holding mass rallies where people are not safely 
distanced or wearing a mask, or what have you. It would be very 
helpful to know that at least you have the strength and the 
ability to talk with the President of the United States and 
speak the truth about what he is doing or what he is not doing.
    I am absolutely, absolutely surprised at the lack of 
strength of many of the people in this Administration. But for 
you, with the responsibility that you have, I would expect that 
you would stand up to the President any time of day and say, 
Mr. President, please, you could be helpful if you support 
wearing masks everywhere you go, if it was a national plan that 
said everybody must wear a mask, everybody must be socially 
distanced, and I'm not going to have a rally where people are 
jammed in and packed in.
    Why can't you say that to the President?
    Mr. Azar. I'm not going to discuss my conversations with 
you with the President. But what I would ask, you're a very 
influential Member, if you could please inspire vaccine 
confidence, it's critical. It's critical for the entire vaccine 
process----
    Ms. Waters. Excuse me. Reclaiming my time, and I know 
they'll say I won't let you answer the question. But you're 
going to come here and tell me to inspire confidence----
    Mr. Azar. We all need to----
    Ms. Waters. And you cannot tell me whether or not you'll 
tell the President to do that?
    Mr. Azar. I have made very clear the independent processes 
for vaccine approval. If you would have let me speak, I 
actually could have walked you through the four independent 
steps on vaccine data and approval and consideration that would 
give people confidence any vaccine will be safe and effective.
    Ms. Waters. Well, thank you.
    Mr. Azar. I will take it, my family will take it----
    Ms. Waters. Thank you.
    Mr. Azar [continuing]. As soon as we're indicated and 
prioritized.
    Ms. Waters. Thank you.
    Thank you very much. Reclaiming my time.
    I would ask you to think about it when you leave here. I 
ask you to think about it before you go to bed at night. When 
you get up and look at yourself in the mirror the next day, I 
want you to think about whether or not you have the strength 
and the ability to say to the President what he should and 
should not be doing.
    And I think he should respect your advice and the advice of 
the experts.
    With that, I will yield to Ms. Maloney the next five 
minutes.
    Thank you.
    Mrs. Maloney. Thank you.
    Mr. Secretary, the Select Subcommittee put out a memo this 
morning in which they identified in this report at least 47 
incidents in which political officials have intervened in the 
Nation's pandemic's response.
    Your Department recently awarded two contracts to public 
relation firms to launch a coronavirus advertising campaign 
that is intended, according to the contract, quote, to defeat 
despair and inspire hope, exactly what Congresswoman Waters was 
speaking about.
    Now, Mr. Secretary, the reason so many people feel despair 
right now is because more than 207,000 people are dead, and 
this administration's response to this crisis has been worse 
than almost any other country. It would have been much more 
effective if President Trump had listened to the experts, if he 
had actually believed in science. Or if he had come up with a 
real plan before today to combat this crisis.
    Instead this administration is spending more than a quarter 
of a billion dollars in taxpayer funds to make videos with 
senior officials and celebrities in a massive ad blitz right 
before the election.
    In order to fund these videos, HHS diverted $265 million 
from CDC and FDA, even as both agencies are fighting, fighting 
this pandemic. This campaign was spearheaded by Assistant 
Secretary for Public Affairs, Michael Caputo. He said these 
contracts were--and I quote--``demanded of me by the President 
of the United States personally,'' end quote.
    Mr. Secretary, is that true?
    Mr. Azar. So, I want to provide an update on this topic 
because I take seriously the value of public health 
communications efforts. First----
    Mrs. Maloney. Well, you're not--I want to hear your 
response--reclaiming my time, Mr. Secretary.
    I want to hear your response and an update on it, but I 
also want to know, is that true? Have you spoken to anyone 
about this ad campaign?
    Mr. Azar. I was literally going to answer your question----
    Mrs. Maloney [continuing]. Whose idea was this? Tell me 
where it came from. Whose idea was it? Was it your idea? Whose 
idea was it.
    Mr. Azar. I have ordered a strategic review of this public 
health education campaign that will be led by our top public 
health and communications experts to determine whether the 
campaign serves important public health purposes.
    I also have taken steps to ensure that any products coming 
out of this campaign will be reviewed and approved by career 
public health officials, including from the CDC.
    There are three key elements to this. What's already 
happened is the Surgeon General has done ads to encourage 
people to practice the three Ws, to donate convalescent plasma, 
and to encourage minority group enrollment in vaccine clinical 
trials.
    The next way will be to inspire flu vaccination as we enter 
into the flu season, and the third phase would be around COVID 
vaccination if we are fortunate enough to have an approved 
vaccine.
    But I will ensure----
    Mrs. Maloney. Reclaiming my time, reclaiming my time.
    Part of this committee's oversight is procurement. So, this 
contract, I'm incredibly interested in it, as one of them was 
awarded to a company called Atlas Research. And according to a 
press report this week, someone--we don't know who--recommended 
that Atlas use a subcontractor called DDT, which just happens 
to be run by Mr. Caputo's former business partner. And 
according to this report, DDT has zero public health experience 
and has been, quote, overwhelmed by the project.
    So, Mr. Secretary, do you agree that it's highly 
inappropriate for any political appointees to push for their 
own business partners to get lucrative government contracts 
when they have zero experience in the area that the contract 
covers?
    Many people in your Department appear to have serious 
concerns with these actions. Politico quotes one current 
official who said this--and I quote--this is a boondoggle. 
We're in the middle of a pandemic. We could use that quarter of 
a billion dollars on buying PPE, not promoting PSA's with 
celebrities.
    Do you agree with that statement, Secretary Azar?
    Mr. Azar. Well, I disagree firmly with your last statement. 
The FDA's real cost campaign about the dangers of tobacco cost 
$250 million. The Affordable Care Act outreach cost $280 
million. This is important public health messaging about--
around good community mitigation steps, around flu 
vaccinations, including----
    Mrs. Maloney. Excuse me. Reclaiming my time, reclaiming my 
time, reclaiming my time, reclaiming my time, Secretary Azar.
    This contract, I agree, there's certain health reasons that 
we should be reaching out to the public, and those that you 
expressed on flu and vaccine and other items are--and the three 
Ws are very important things. But this was not. This was about 
feeling good, being positive. It had nothing to do with health 
from the press reports that I read. And right now----
    Mrs. Walorski. Madam Chairman----
    Mrs. Maloney [continuing]. Why are we having this blitz 
right before the election? There are a lot of troubling 
questions about it, but I know my time has expired.
    Ms. Waters. The gentlelady's time has expired.
    Mrs. Maloney. I would like to present some more questions 
to you in writing, Secretary Azar.
    And I yield back.
    Ms. Waters. Thank you.
    I now yield to Mrs. Walorski five minutes.
    Mrs. Walorski. Thank you, Madam Chair.
    Secretary Azar, if China shared the virus sequence earlier, 
would fewer Americans have died?
    Mr. Azar. Yes. We would have advanced faster.
    Mrs. Walorski. If China didn't lie about human 
transmission, would fewer Americans have died?
    Mr. Azar. That's correct.
    Mrs. Walorski. If China didn't hoard PPE, would fewer 
Americans have died?
    Mr. Azar. Absolutely.
    Mrs. Walorski. If China didn't corrupt the World Health 
Organization, would fewer Americans have died?
    Mr. Azar. Yes.
    Mrs. Walorski. If China had not let American scientists 
into the country, would fewer Americans have died?
    Mr. Azar. That's correct.
    Mrs. Walorski. If China hadn't put export controls on PPE, 
would fewer Americans have died?
    Mr. Azar. Correct.
    Mrs. Walorski. Thank you.
    I yield back.
    Ms. Waters. I yield five minutes to Mr. Foster.
    Mr. Foster. Thank you, Madam Chair.
    And if those--the last questions you just got, if it were 
applied to Korea--my wife is Korean, and she looks at the 
contrast between the response. They got hit harder earlier than 
we got hit and have had, by contrast, a negligible number of 
events.
    So, all of the last questions that you just answered apply 
equally to South Korea, correct.
    Mr. Azar. I would be glad to discuss the difference between 
the U.S. and South Korea in detail if you would like.
    Mr. Foster. I think the largest single factor, frankly, is 
that they have leaders who listen to the scientists and 
policies that followed that.
    Now, a point of clarification. Last month the FDA 
commissioner issued new guidance settling the criteria for 
Emergency Use Authorization for coronavirus vaccines. You know, 
I applaud that decision and the transparency. But, 
unfortunately, President Trump called this guidance, quote, 
political, and he said, quote, that has to be approved by the 
White House. We may or may not approve it.
    So, my question is, what is the signature chain on this 
document? Is it the FDA commissioner? Do you have final 
approval, or does the President have final say and final edit 
on this document?
    Mr. Azar. So, you made a mistake in your statement there. 
Several months ago the FDA issued vaccine guidance, and that 
went through the full interagency process as is required under 
Executive Order before coming out of FDA. That's what requires 
the 30,000 people in clinical trials, et cetera.
    Mr. Foster. Yes.
    Mr. Azar. The FDA has sent letters to vaccine manufacturers 
stating what they would ask for in the EUA.
    Mr. Foster. OK. Who has final say on the specifications for 
an acceptable vaccine? Is it the President or is it HHS career 
people?
    Mr. Azar. So, this is--what the commissioner is proposing 
to put out is public Emergency Use Authorization guidance on a 
vaccine that would be consistent with letters already sent to 
the manufacturers and just doing that publicly. That does 
require White House----
    Mr. Foster. OK. So, your answer is that President Trump has 
the final say on these documents. And he was correct when he 
said that has to be approved by the White House, we may or may 
not approve it?
    Mr. Azar. I think this is a mountain out of a molehill 
because they've already--FDA has already--Peter Marks said 
yesterday the FDA has already told the manufacturers what 
they're going to look for, and that is what it is.
    Mr. Foster. Did you see the debate on Tuesday?
    Mr. Azar. I did, parts of it.
    Mr. Foster. OK. So, I would like to enter into the record, 
it's been distributed to Members, an open letter that was sent 
last night from the chairman and CEO of Pfizer--Pfizer-
BioNTech, as you're aware, is one of the vaccine participants 
in OWS--a gentleman by the name of Dr. Albert Bourla, which was 
sent to his U.S. colleagues.
    I would just like to read the first paragraph of that, of 
that letter. Tuesday night I was joined--I joined the millions 
of Americans who tuned in to the Presidential debate. Once more 
I was disappointed that the prevention of deadly disease was 
discussed in political terms rather than scientific facts.
    People who are understandably confused don't know whom or 
what to believe. Global health has too much at stake and the 
public trust and acceptance of a vaccine is so important to me 
that I'm writing to explain the principles that we are using at 
Pfizer today.
    He goes on in his letter to explain why Pfizer refused to 
accept, you know, money or guidance from Operation Warp Speed. 
Alright,he will accept a production contract but not the 
oversight because, frankly, he didn't want the disturbance in 
confidence in his product that would result from that.
    So, as I say, I enter that into the record.
    Mr. Foster. Another thing, you know, I would like to talk a 
little bit about the timeline that you talk about in your 
testimony here. You know, as you know, if you exceed, I think 
it's warp factor ten, you go backward in time, which allows you 
to rewrite history, which seems to be a fair part of what 
you're trying to accomplish here.
    Many of the milestones that you list here occurred before 
Operation Warp Speed was even announced and was the result of 
the efforts of scientists, career professionals at HHS, rather 
than anything coming out of the White House and Operation Warp 
Speed.
    And in fact, if you click on the therapeutic development 
link in your testimony, you're led to a press release and a 
discussion by Rick Bright, who's the very scientist who, in 
fact, pulled the whistleblower complaint over political 
interference.
    So, you know, giving credit to the leadership of President 
Trump is, I think, a little bit problematic here.
    I would also like to enter into the record three reports on 
the President's budget cuts proposed year after year after 
year.
    Mr. Foster. As soon as Trump entered office, he proposed a 
22 percent budget cut to the NIH and other health--other HHS.
    He then had double digit budget cuts even after President 
Trump knew that the coronavirus was--had been briefed on how 
deadly it was. In February 2020, he proposed a seven percent 
cut to the NIH.
    So, how do you give credit to President Trump for any of 
this, the achievements of his scientists, when he has cut their 
budgets, proposed cuts to their budgets year after year after 
year?
    Mr. Azar. President Trump is the one who actually has 
backed this historic effort. It pains me that you denigrate 
Operation Warp Speed and the effort that's happening there. 
These are career people from the Defense Department, from HHS, 
from NIH driving this.
    Mr. Foster. Correct. It is the White House oversight that I 
give no credit to.
    Thank you, and I yield back.
    Ms. Waters. The gentleman's time has expired.
    Mr. Raskin, you're recognized for five minutes.
    Mr. Raskin. Thank you very much, Madam Chair.
    Secretary Azar, tell me if you agree with this statement: 
When younger, healthier people get infected, that's a good 
thing because that's exactly the way that population immunity 
develops.
    Mr. Azar. I don't want anyone to get infected, Congressman.
    Mr. Raskin. So, you disagree with that statement?
    Mr. Azar. I am not a physician. I am not an epidemiologist.
    Mr. Raskin. You're the Secretary of HHS.
    Mr. Azar. I'm going to tell you, my mission is going to 
keep people from getting infected with coronavirus, as few as 
possible.
    Mr. Raskin. OK, OK. Reclaiming my time.
    The quote comes from Scott Atlas, who is a top member of 
the White House Coronavirus Task Force, who has been promoting 
the ideology of herd immunity, which seems to have affected the 
President who said on September 15 that the coronavirus is 
going to disappear, even without a vaccine, because people 
would develop, quote, a herd mentality, which is a telling 
Freudian slip. But, in any event, he seems to have adopted it.
    Here's Paul Alexander who, I think, works for you, a senior 
advisor at HHS. He wrote to Michael Caputo the following: 
Importantly, having the virus spread among the young and 
healthy is one of the methods to drive herd immunity. This was 
not--he said the original, this was not the intended strategy, 
but all must be on deck now and it is contributing positively 
at some level.
    Do you agree with what your employee, Paul Alexander wrote 
to Michael Caputo about herd immunity being a positive factor 
in your plan for combating the disease?
    Mr. Azar. Dr. Alexander, you may have missed this, does not 
work at HHS anymore.
    Mr. Raskin. Did you fire him for that statement?
    Mr. Azar. I'm not going to discuss the personnel matters, 
but he does not work at this Department or in the U.S. 
Government at this point.
    Mr. Raskin. OK. Well, Secretary, I don't know why you need 
to be illusive about it. This is a dangerous concept. Herd 
immunity, if this is gaining traction within the White House 
and with the President, will end up costing hundreds of 
thousands, if not millions, of American lives because the 
theory is that you essentially let the disease wash over the 
population and then you end up with 60 or 70 percent immunity 
among the people.
    But right now the studies show it's below 10 percent. That 
means 90 percent of the people don't have it. So, we would have 
to infect tens of millions more people in order to create this 
herd immunity.
    And I'm wondering if you can break through the herd 
mentality of the thinking within the top circles at the White 
House to oppose herd immunity publicly, articulately, and 
forcefully today.
    Mr. Azar. Herd immunity is not the strategy of the U.S. 
Government with regard to coronavirus. We may get there as 
other countries get. We may get herd slowing of transmission, 
as we perhaps have seen in the New York area and other 
concentrated areas. Our mission is to reduce fatalities, 
protect the vulnerable, keep coronavirus cases down to the 
lowest level possible----
    Mr. Raskin. How about beat the disease? How about vanquish 
the disease?
    Mr. Azar. That's literally what I was just saying we would 
be doing.
    Mr. Raskin. You know herd immunity has been tried in Sweden 
and it failed. The death toll there is ten times its neighbor 
Finland and other Scandinavian countries. It doesn't work. It's 
killing people. That is a policy of mass human sacrifice. And I 
hope that as other people pop up throughout the administration 
arguing for herd immunity and the idea that the spread of the 
disease is a positive thing, you, as the Secretary of the HHS, 
will be a forceful voice combating that sinister view.
    Mr. Secretary, can you give us any further updates on the 
President's health today, whether anyone else at the White 
House has tested positive or has any symptoms of the virus and 
what precautions are being taken through contact tracing to get 
in touch with people that the President has interacted with in 
the last several days?
    Mr. Azar. Well, I'm sorry, but I've been both preparing to 
be here and sitting here in front of you the entire time, so 
I'm not----
    Mr. Raskin. OK. I have another question for you then.
    There's been a lot of talk about China today, and I'm 
always baffled when my colleagues brings it up, because 
President Trump praised President Xi and the Chinese Communist 
Party on 37 different occasions, and I have submitted them for 
the record.
    I have distributed them to my colleagues, and I can do it 
again, Mr. Chairman, if you think I should submit it again. I 
would love nothing more than to have a hearing about the 
President's complicity with covering up China's early lies 
about the disease. And for the life of me, I can't understand 
why my colleagues bring it up, and I hope it's not contributing 
to bias in the country.
    But I know you don't want to talk about your specific 
conversations with the President, but have you, either in 
writing or in conversation or at meetings, ever told the 
President to stop praising President Xi and the Chinese 
Communist Party for its performance on COVID-19? We have 
records of him doing that in February, in March, in April.
    Did you ever tell him to stop doing that?
    Mr. Azar. So, again, I'm not going to talk about what I 
said with the President, but what the President was doing then 
with China, it's a difficult matter. You have carrot and stick. 
We're trying to get viral isolates----
    Mr. Raskin. Did they play him for a sucker? Did they play 
him for a sucker? Is that why we're in this situation?
    Mr. Azar. We got viral sequencing in. I had to force them 
to get----
    Mr. Raskin. My time is up. Mr. Chair, I yield back.
    Chairman Clyburn. I thank the gentleman for yielding back.
    The Chair now recognizes Mr. Kim for five minutes.
    Mr. Kim. Thank you, Mr. Chairman. Thank you again, Mr. 
Secretary, for coming.
    I want to just pick up where we left off before. So, what I 
thought I understood you saying was that we'll see what happens 
with the Supreme Court and then, based off of that, then there 
will be sort of a--you know, an effort to create a plan to 
replace the ACA if the Supreme Court strikes it down. Is that 
what you were saying?
    Mr. Azar. So, obviously, there are many different 
scenarios. First, we're going to, no matter what, protect 
people with preexisting conditions. He's not going--the 
President will not sign any piece of legislation that doesn't 
do that. But there are many ways to protect people with 
preexisting conditions and also ways to set up affordable 
mechanism for insurance.
    Mr. Kim. I get that, but it sounded like when I asked you 
if there was a plan to replace, you know, in regards to whether 
the Supreme Court moves forward, it sounded like you were 
saying that there's not right now. Is that correct?
    Mr. Azar. We have a range of approaches, and it will depend 
on the composition of Congress at the time, because, of course, 
dealing with Nancy Pelosi is different than otherwise, and what 
one could pass through Congress to replace Obamacare.
    Mr. Kim. The reason why I asked you that is because two 
weeks ago I heard a clip that just kind of struck me. It was 
the President talking, and he said, We're going to be doing a 
healthcare plan very strongly. I have it all ready and it's a 
much better plan for you.
    So, I guess I'm just trying to get a sense of that because 
it sounds like it kind of contradicts what you're saying, like 
the President is saying he has a plan ready to go, you're 
saying that we're not there, it's going to be something we're 
thinking through.
    So, can you explain that to me.
    Mr. Azar. I think you and the President are using the word 
``plan'' differently. What the President rolled out last 
Thursday was his healthcare plan for 331 million Americans. 
You're speaking about this small sliver, which is Obamacare, in 
the hypothetical that the Supreme Court strikes down all or a 
large part of it.
    The President is focused on delivering better care, lower 
cost, and more choices for 331 million Americans, not just 
those who are trapped and/or excluded from Obamacare.
    Mr. Kim. OK. Well, look, I remember you're referring to the 
Executive Order on the preexisting conditions and other 
aspects. Is that correct?
    Mr. Azar. Well, the broader framework actually is about how 
we--the fact that we've brought transparency in price and 
quality for the first time ever, lowering drug prices.
    I now have signed the first ever certification for 
importation of drugs to lower costs here in the United States 
under the President's direction. We've brought interoperable 
health IT to enable you to shop among providers and not be 
locked into one system. We're tackling kidney disease for the 
first time since President Nixon.
    We're ending the HIV epidemic in the United States. We're 
tackling the most contractible healthcare problems, improving 
healthcare for all 331 million Americans. That's the 
President's plan for healthcare.
    Mr. Kim. I get that, but I also get, you know, kind of 
concerned when I hear that, you know, for instance, the 
American Enterprise Institute when they were taking a look at 
the Executive Order on preexisting conditions, what they said 
is, quote, ``all it really is, is a statement that he wants one 
or more of his departments to come up with a plan and that he 
doesn't give any guidance or the vaguest outline of what that 
plan should be,'' end quote.
    So, look, we'll move on from here, but I just feel like 
this is an enormously dangerous situation where we already have 
millions of Americans who have lost healthcare during this 
pandemic, potentially millions more that will lose their 
healthcare.
    And the best that I kind of hear is just that we'll see 
what happens at that time, you know, and that's just not 
reassuring to people in my district who are very, very 
concerned about what happens next.
    But I want to just switch gears here because there was a 
lot of talk about vaccine approvals, but one thing I wanted to 
get to is about the distribution of the vaccine. I saw the From 
the Factories to the Frontline document and some of the 
different efforts in there.
    But one thing that was concerning to me is that it was 
saying that 64 different CDC jurisdictions around this country, 
you're asking them to be able to come back to you with their 
plans, different states, different territories. How is that not 
saying that we don't have--basically that indicates to me that 
we don't have a singular strategy but rather 64 different 
strategies. How is this not just the testing debacle all over 
again.
    Mr. Azar. No. So, what it is with the 64 jurisdictions is 
working in partnership with the states. We're going to have a 
centralized distribution system. We're going to rely on 
McKesson, which does the Vaccines for Children program out of 
the CDC, does 80 to 90 million vaccines a year. We have cold 
chain storage set up through that.
    They'll partner with Cardinal and AmerisourceBergen as 
needed to reach to our pharmacies and community health centers 
for actual vaccination programs. But we need the states to be 
partnered with us because they know where the vaccine should go 
locally to hit target populations.
    So, if say, we're dealing with nursing homes and the 
vulnerable people, the states will tell us which--how they want 
to administer that, do they want to use a CVS, do they want to 
use a Rite Aid, do they want to use their public health 
department. That's why we're partnering with them.
    Mr. Kim. So, that's helpful, and I want to make sure we 
work together on this. It's so incredibly important.
    Just the last thing, as you said, you know, you corrected 
the ranking member, you're a J.D., not a doctor, and you said 
that we're going to be grounded in science and evidence and 
career scientists for the approval of the vaccine. I also want 
to see the confidence in the American people on vaccines. I 
want us to work together on that.
    Does that mean that you will not play a role in the 
approval, like you're not going to be providing inputs or 
recommendations to the FDA commissioner for this? I just want 
to hear your explanation.
    Mr. Azar. Well, I want to be very clear. When we talk 
about--there's all of this talk today about political, quote, 
``interference.'' OK. We harness the best minds, scientific 
data. I have--I'm the Secretary. I bring 20 years of 
experience. I was one of the architects of the pandemic flu 
planning in the Bush Administration that helped create our 
novel pandemic flu vaccines and our vaccine capacity here in 
the United States.
    We have many people who bring a lot of expertise and 
knowledge to the table. Those people can participate. Those 
people can contribute. They can challenge. They can ensure good 
decisions are made.
    What I'm telling you is that, at the end of the day, it 
will be the FDA career scientist, Dr. Peter Marks, is going to 
make the decision whether a vaccine is safe and effective.
    Mr. Kim. That's all I wanted to hear.
    Thank you so much.
    Chairman Clyburn. Thank you very much.
    I think we have concluded this second round of questions, 
and I'm prepared to yield to the ranking member for any closing 
comments he may want to make.
    Mr. Scalise. Thank you, Mr. Chairman, and, again, thank 
you, Secretary Azar, for coming and having two rounds of 
questions where we can really try to get some of the facts out 
there about where we are, what's happening with the response to 
COVID, what's happening with the economic and, hopefully, the 
educational recovery of this country.
    One of the things we wanted to do is get out as many facts 
as possible. And, again, there has been a plan that started 
early off in this pandemic, and it continues to grow and change 
as we learn more about the disease, as we learn more about 
things that we're doing and we need to do to give guidance to 
states to safely reopen different parts of their economy. But 
we put this report together, to give everybody that guide map 
for those who either are denying that there's a plan or want to 
ignore that there's a plan, it's out here. It's on the 
internet. You can go see it, tens of thousands of pages. But we 
put together a summary to make it easier for some folks that 
maybe are having trouble understanding that plan.
    But the basics of this plan are, No. 1, China lied and 
caused a global pandemic. I know the Secretary talked about 
some of these challenges as China was withholding information, 
not just from us, but from the entire world. That cost--China's 
lies cost tens of thousands of lives. This committee ought to 
look into that and hold them accountable.
    No. 2, President Trump responded immediately. First 
decision that every scientist that's testified before this 
committee said was the right decision was to ban flights from 
China. President Trump's decision saved American lives.
    There were some people who criticize that decision, who 
claim there would have been no deaths if their mysterious plan 
that doesn't exist would have been in place. But, in fact, 
there would have been more deaths if they would have gotten 
their way.
    Fortunately, they didn't. President Trump took that action 
that Dr. Fauci, on down, including yourself, all testified was 
not only the right decision, saved thousands of American lives.
    No. 3, President Trump made tough science-based decisions 
that did save hundreds of thousands of lives, not just China 
and Europe ban, 15 days to slow the spread, 30 more days, 
continuing to get guidance out there, guidance on how, as 
you've talked about Mr. Secretary, properly taking care of 
people in nursing homes.
    Forty-five Governors followed those guidelines. Five 
Governors didn't. And 25,000 minimum seniors died that 
shouldn't have died in those states, and those Governors 
continue to hide the facts from the families of those who died. 
And we're going to keep pressing. If everyone doesn't join us, 
those of us that actually want to get those answers will keep 
pressing for those answers.
    No. 4, President Trump is developing a safe, effective 
vaccine, working through all the FDA protocols, which are the 
gold standard, and it's happening faster than ever before. 
These are the four American companies, teams that have 
partnered up in some cases to get to the final stage of FDA 
approval.
    And if they get through, they have got to meet the rigors, 
as Secretary Azar has testified, of the gold standard of the 
world, the FDA approval process. And if they do, the Trump 
administration, through Operation Warp Speed, is actually 
manufacturing the vials of that vaccine now, not waiting until 
the end, but actually manufacturing it now while it's being 
tested on tens of thousands of Americans to see if it is a safe 
and effective drug. And if it is, it will be ready and 
available the very next day.
    Anyone who undermines public confidence in that vaccine and 
that process will be costing American lives. Any Governor who 
tries to deny their own constituents of their state that 
vaccine would be costing lives.
    How barbaric and crude would that be for a Governor to say 
they're not going to let the citizens of their state have an 
FDA-approved drug to save lives? I don't think even think 
that's legal. But we will continue to press on, and I know 
President Trump continues to press on.
    And I appreciate, again, the work of the 80-plus thousand 
men and women in your agency who are working on that. They are 
not just working on the vaccine. They are delivering billions 
of PPE.
    Again, China hoarded the PPE. Most of it was made there. We 
know we need to make it here now. We ought to be doing more to 
push to help make more of that PPE here in America so we don't 
have to be relying on China when they lie and hoard the PPE.
    But we're doing more of that now. Billions are now being 
sent out through the President's initiative. And, of course, 
building the largest testing system in the world, we're testing 
more people in the world, more capabilities, nursing homes are 
getting tests, the testing capabilities continue going forward.
    And, finally, point five, President Trump prioritized the 
elderly while some of those Governors continued to put their 
seniors at risk. This President has taken decisive action to 
save American lives. We wish there were no lives lost. This is 
a global pandemic. Every country in the world is experiencing 
loss of lives.
    If you look at this list, we wouldn't even be on this top 
ten if those five Governors would have complied, but, 
obviously, that's not where we are. China and Russia, by the 
way, aren't on these list. Why? Because they won't even share 
with the world their data. They might be at the top.
    But regardless of that, we need to keep working to save 
American lives.
    I thank you for the work you and your team are doing and 
President Trump for the work he's doing on behalf of the 
American people to finally get our economy back open as we 
defeat this evil virus.
    With that, Mr. Chairman, I yield back.
    Chairman Clyburn. Thank you very much.
    Before closing, without objections, I would like to 
introduce into the record a research letter published by the 
Journal of American Medical Association entitled ``Mortality, 
Admissions and Patient Census at Skilled Nursing Facilities in 
Three United States Cities during the COVID-19 Pandemic.''
    Chairman Clyburn. According to this study, the severity of 
nursing home outbreaks mirrored the outbreaks in their 
communities. New York had a much worse outbreak than Florida, 
especially at the beginning of the pandemic.
    The claim my Republican colleagues made that Democratic 
Governors are responsible for nursing home outbreaks is just 
wrong. The problem of outbreaks in nursing homes is a national 
problem and, as this study shows, tracks the outbreaks in 
communities.
    I should also note that Florida has 27,365 cases of the 
coronavirus in nursing homes. This is the fifth highest in the 
entire country. The state has had 5,266 deaths in nursing 
homes, which is the sixth highest in the entire country.
    Now, before we close, I would also like to enter into the 
record letters the committee has received from the National 
Association of County and City Health Officials, the Infectious 
Disease Society of America, and HIV Medicine Association.
    I am asking for unanimous consent that all of these be 
entered into the record.
    Mr. Scalise. No objection.
    Chairman Clyburn. Thank you, Mr. Ranking Member.
    In closing, I want to thank you, Mr. Secretary, for being 
here today.
    Sir, it is pretty clear that the Trump administration's 
approach to this virus since January has not worked. That is 
why more people in America have died from the coronavirus than 
in any other country and why the virus is still surging in many 
states.
    But I do not believe that it is too late to turn things 
around if the Administration will finally lead with the science 
instead of politics. That means committing today to end the 
political meddling and allowing our scientists and public 
health experts to do their jobs, allow the CDC to put out 
accurate public health guidance, let the FDA approve treatments 
and vaccines when they are proven safe and effective, not when 
they are politically convenient and in the constant stream of 
disinformation coming from the White House.
    To control this virus, we also need the administration to 
finally put in place a coordinated national strategy to respond 
to the pandemic, a strategy I have been calling for since this 
subcommittee's very first briefing in May.
    This national plan must include a strategy to increase 
testing, end chronic shortages in swabs and other supplies, and 
more effectively, efficiently, and equitably target the tests 
we have.
    The Federal Government must also use its resources to 
procure and distribute masks. And I would much rather see, and 
I would be hopeful, that the White House would send--go back to 
that plan and send a mask to everybody.
    And I would be pleased for the President to insert a letter 
with his signature on it. I would much rather see that than 
these box lunches that he is now requiring that his name be--a 
letter signed by him be in every one of those boxes. Let's have 
a letter signed by him in a box with a mask going into every 
home. That to me would be contributing to the preservation of 
life.
    A national plan to me must include clear and consistent 
public health measures across all 50 states, include uniform 
use of masks in public places, and strict limits on large 
gatherings, especially in areas with high rates of community 
transmission.
    Mr. Secretary, it is too late to save the 207,000 Americans 
who have already died from this virus, let alone, so let us 
work together to make sure we don't lose another 207,000 lives.
    Without objections, all members will have five days from 
today within which to submit additional written questions for 
the witness to the chair. This will be forwarded to the witness 
for their response. I ask the witness to please respond as 
promptly as possible.
    With that, this hearing is adjourned.
    [Whereupon, at 12:03 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
